          OFFICE OF INSPECTOR GENERAL



                                Cataly st fo r Im p ro vin g th e Env iro nm e nt



Special Report

          Review of Conflict of Interest Allegations
          Pertaining to the Peer Review of EPA’s Draft
          Report, “Exposure and Human Health
          Evaluation of Airborne Pollution from the
          World Trade Center Disaster”
          Report No. 2005-S-00003

          November 4, 2004
Report Contributors:	                           Rick Beusse
                                                James Hatfield
                                                Chris Dunlap
                                                Steve Schanamann
                                                Eric Hanger




Abbreviations:

COI          Conflict of Interest
EPA          Environmental Protection Agency
FAR          Federal Acquisition Regulation
GAO          Government Accountability Office (formerly General Accounting Office)
NCEA         National Center for Environmental Assessment
NCP          National Contingency Plan
OIG          Office of Inspector General
SAB          Science Advisory Board
WTC          World Trade Center




Cover photo: EPA map of ambient air monitoring locations in lower Manhattan; developed
             with EPA’s EnviroMapper. Source: http://www.epa.gov/wtc/em/
                                                                                                                2005-S-00003
                        U.S. Environmental Protection Agency                                                 November 4, 2004
                        Office of Inspector General


                        At a Glance

                                                                              Catalyst for Improving the Environment


Why We Did This Review              Review of Conflict of Intere st Allegations Pertaining to
We performed this special
                                    the Peer Review of EPA’s Draft Report, “Exposure and
review to (a) determine the         Human Health Evaluation of Airborne Pollution from the
validity of multiple allegations    World Tra de Cen ter Disaster”
that three peer review
panelists had conflicts of
interest or biases which might       What We Found
have im paired the ir judgm ents
in their peer review of EPA’s       The seven -membe r peer review p anel selected to review EPA’s d raft report
draft assess ment of the health     included one panelist with an extensive history of providing expert testimony and
hazards caused by the collapse      similar services for defendants in asbestos lawsuits, and two panelists who had
of the World Trade Center           made p rior pub lic statemen ts regardin g the safety of the air aro und the WTC site.
(WTC) tow ers, and (b) assess       These circumstances provided a basis for the perception that one panelist had a
the adeq uacy o f steps take n to   potential c onflict of in terest and tw o panelis ts had po tential biase s that wo uld
balance the peer re view p anel.    preven t them fro m prov iding im partial inpu t. We fou nd that E PA’s C ontracto r did
                                    not inquire whether the three panelists had received funding from industry or had
                                    publically expressed viewpoints on the issues to be reviewed. However, our
Background
                                    examination of the peer review record did not find that the panel’s input was biased,
                                    nor that perceived biases and conflicts were so “direct and substantial” that any of
The impartiality of three peer
                                    the pane lists should have be en exclu ded from the pane l.
review panelists was
questioned because one
                                    In our view additional measures should have been taken during the peer review
panelist allegedly had a
                                    selection process to disclose the information about panel members upon which the
working relationship with an
                                    allegations of conflicts of interest or bias were later made. Specifically, had EPA’s
asbestos company and two
                                    Contractor inquired about industry funding, learned whether panelists had expressed
other pan elists had p ublically
                                    opinions pu blically about the p eer review issues, an d taken other ac tions to identify
expressed their viewpoints,
                                    the bases for these p erceived conflicts an d biases p rior to the se lection of th e panel,
prior to commencement of the
                                    EPA would have be en better ab le to cons ider the ne ed for ad ditional ac tions to
peer revie w, regard ing health
                                    balance the panel or otherwise resolve these perceived, potential conflicts and biases
hazards at the WTC site. One
                                    prior to conducting the peer review.
way such concerns can
sometimes be addressed is by
using a b alanced panel.
                                    What We Recommend

                                    We made a n umber of recomm endations to better ensure that guidance in EPA’s
For further information,
contact our Office of
                                    Peer Re view H andbo ok will b e fully follo wed, inc luding th at EPA provide :
Congressional and Public
Liaison at (202) 566-2391.          •	 better oversight of p eer review con tracts to ensure that po tential panelists are
                                       asked about industry financing and their relationship with clients; and
To view the full report,
click on the following link:        •	 supplemental guidance and training of peer review leaders regarding the types of
                                       information they may need to obtain about potential panelists’ opinions and
www.epa.gov/oig/reports/2005/          viewpoints when they assess whether panels are independent and balanced.
20041104-2005-S-00003.pdf
                                    EPA agreed with our conclusions and recommendations and has either taken
                                    actions, or set milestones for completing actions, to address our concerns.
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460



                                                                                    OFFICE OF
                                                                           T H E I N S PE C T O R 	 GENERAL


                                       November 4, 2004
MEMORANDUM

SUBJECT:	 Evaluation Report: Review of Conflict of Interest Allegations Pertaining to the
           Peer Review of EPA’s Draft Report, “Exposure and Human Health Evaluation of
           Airborne Pollution from the World Trade Center Disaster”
           Report No. 2005-S-00003

FROM:	       Kwai-Cheung Chan /s/
              Assistant Inspector General for Program Evaluation

TO:	           Dr. J. Paul Gilman
               Assistant Administrator for Research and Development

               Dr. Peter R. Preuss
               Director, National Center for Environmental Assessment

Attached is our final report regarding allegations that the above Environmental Protection
Agency (EPA) draft report had not received an impartial peer review. Our report contains
findings and recommendations that should help EPA better ensure impartial, balanced peer
reviews of its scientific and technical work products. Our report represents the opinion of the
OIG and the findings contained in this report do not necessarily represent the final EPA position.

Our final report acknowledges and includes your October 21, 2004, response to our draft report,
the corrective action plan, and the new peer review policy. We commend the Office of Research
and Development (ORD) and the National Center for Environmental Assessment (NCEA) for the
actions already completed, as well as the actions planned.

Action Required

The October 7, 2004, NCEA Policy Announcement addresses many of our concerns, and the
ORD Action Plan, if properly implemented, addresses our other concerns. Therefore, in
accordance with EPA Manual 2750, we are closing out this final report upon issuance. As
outlined in EPA Manual 2750, Agency management is responsible for tracking implementation
of these recommendations in its Management Tracking System. We appreciate the efforts of
ORD and NCEA officials and staff, and EPA’s peer review contractor, in working with us to
develop this report. For your convenience, this report will be available at
http://www.epa.gov/oig.
If you or your staff have any questions regarding this report, please contact me at (202) 566­
0827 or Rick Beusse, Director for Program Evaluation - Air Issues, at (919) 541-5747.

Attachment

cc:	   Cheryl Varkalis, Audit Liaison, Office of Research and Development
       Matt Lorber, National Center for Environmental Assessment/ORD
       Elizabeth Grossman, Office of Program Evaluation/OIG




                                                -2­
                                     Table of Contents

At a Glance


 Chapters

   1   Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 1


                 Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

                 Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1

                 EPA’s Guidance for Conducting Peer Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           2

                 Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              3

                 Prior OIG Repo rt . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        4

                 Results in Brief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     4

                 Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            6

                 Agen cy Com ments and O IG Eva luation . . . . . . . . . . . . . . . . . . .. . . . . . . . . . . . . . . . . . .                    6



   2   Results of Review of the Six Allegations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


                 Question 1: Did the NCP Require Public Participation in Peer Review 

                             Panel Selection? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   7

                 Question 2: Was NCEA Obligated by Procurement Policy Notice 95-04
                             to Evaluate the Sensitivity of the Work Being Performed? . . . . . . . . . . . .                                         8

                 Question 3: Was N CEA O bligated to Ensu re that Its Peer Re view Con tractor 

                             Required Potential Panelists to Disclose All Substantial Public 

                             Statements and All Business Relationships? . . . . . . . . . . . . . . . . . . . . . .                                   9

                 Question 4: Did the Asbestos Expert Have a Conflict of Interest? . . . . . . . . . . . . . . .                                      13

                 Question 5: Did Two Panelists Have Biases Based on Their Prior Stated 

                             Conclusions Regarding WTC Health Hazards? . . . . . . . . . . . . . . . . . . . .                                       17

                 Question 6: Did EPA’s Contractor Adequately Consider Balance in 

                             Selecting the Panel? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    21

                 Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     22

                 Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          23

                 Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        23



   3   Observations on Panel Formation and Balance . . . . . . . . . . . . . . . . . . . . . . . . . .                                               24


                 Handbook Guidance on Panel Balance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        24

                 Experts’ Comments on EPA’s Peer Review Han dbook . . . . . . . . . . . . . . . . . . . . . . . .                                    24

                 Prior OIG Repo rt Discuss ed Co ncerns With EP A Efforts

                      to Assess Peer Reviewers’ Independence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                           25

                 Increased Federal Attention to Peer Review Panel Balance . . . . . . . . . . . . . . . . . . . . .                                  26

                 Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     27

                 Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           27

                 Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        28





                                                                     -i­
Appendices
   A   Complainant’s Allegation Memorandum . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      30
   B   Peer Review Panelists and Backgrounds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        37

   C   Agen cy Res ponse to Draft Re port. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              38
   D   ORD Correctiv e Action Plan.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              42
   E   NCE A Policy Annou ncem ent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                44
   F   Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   51





                                                           -ii­
                                Chapter 1
                                 Introduction
Purpose
          The Office of Inspector General (OIG) conducted a review of six allegations
          concerning the peer review that was performed on a draft report, issued by the
          Environmental Protection Agency’s (EPA) National Center for Environmental
          Assessment (NCEA), entitled: “Exposure and Human Health Evaluation of
          Airborne Pollution from the World Trade Center Disaster” (Draft Assessment).
          Based on the allegations made by the Complainant, our objectives were to answer
          the following six questions:

          •	   Does the National Contingency Plan require that the public be given an
               opportunity to comment on the choice of peer review panelists, or suggest
               other experts who could represent the views of the community?

          •	   Was NCEA obligated to evaluate the sensitivity of the work being
               performed as allegedly required by its guidance for handling conflict of
               interest situations that are identified after contract award?

          •	   Was NCEA obligated to ensure that its peer review Contractor required
               potential panelists to disclose all substantial public statements they had made
               about the World Trade Center (WTC) disaster and all business relationships
               with industries that could be effected by NCEA’s findings on WTC exposure
               hazards?

          •	   Did panelist Dr. Er ic Chatfield have a conflict of interest and did his res umé
               lack information which would have underscored this conflict of interest?

          •	   Did panelists Dr. Alison Geyh and Dr. Patrick Kinney have a bias because
               they had publically expressed prejudicial opinions before the peer review
               process began that “ . . . there were no hazards from WTC exposures”?

          •	   What steps were taken to ensure that the panel was balanced?

          Appendix A provides more information on the allegations.


Background

          In the aftermath of the collapse of the WTC towers on September 11, 2001,
          various government entities initiated numerous air monitoring activities to better
          understand the ongoing impact of emissions at the disaster site. At the request of
          EPA Region 2 in New York City, NCEA officials used the data collected from
                 these monitoring activities to conduct an inhalation exposure and human health
                 risk assessment for airborne pollution from the WTC disaster. The issue of
                 potential health impacts from exposure to airborne pollutants resulting from the
                 collapse of the towers and the continuing fires at Ground Zero was a highly
                 sensitive and controversial subject. Accordingly, most government
                 pronouncements and data regarding this subject were and continue to be highly
                 scrutinized.

                 In December 2002, NCEA issued its Draft Assessment for public comment.
                 NCEA officials first obtained a proposal from the National Academy of Sciences
                 for the peer review of this Assessment; however, they subsequently decided the
                 National Academy of Sciences proposal would take too long and cost too much.
                 As such, they decided to obtain the peer review by issuing a task order to Versar,
                 Inc. under an existing 5-year contract for peer review and risk assessment support
                 (Contract).1 Versar, in turn, obtained the services of seven peer reviewers by
                 issuing seven Work Assignment Authorizations. Versar held a public peer review
                 meeting on July 14-15, 2003. A summary of the peer review panel’s comments
                 and meeting is available on EPA’s public website.

EPA’s Guidance For Conducting Peer Reviews

                 The Agency’s guidance concerning peer reviews is contained in EPA’s Peer
                 Review Handbook, Second Edition, December 2000 (Handbook), which was
                 issued by EPA’s Science Policy Council. This guidance applies whether EPA
                 obtains peer reviewers directly, or contracts for another entity to obtain
                 appropriate peer reviewers. According to the Handbook, the principal reason for
                 having a peer review is to ensure the scientific integrity and technical credibility
                 of a work product which supports a policy or decision, through a complete,
                 independent, objective, and competent review. The peer review process is
                 intended to uncover any technical problems or unresolved issues in a preliminary
                 work product through the use of independent experts. Peer review panelists do
                 not formulate EPA policy; instead, they provide expert input on technical issues
                 which underpin EPA conclusions or policies, such as whether a particular
                 sampling procedure is an acceptable method for obtaining data used by EPA
                 officials to reach conclusions or formulate policy.

                 The Handbook states that selecting an independent peer review panel is crucial to
                 an effective peer review, and therefore, EPA should make every effort during
                 panel formation to use peer reviewers who do not have any real or perceived bias
                 or conflicts of interest and who are completely independent.


        1
         The Contract, entitled NCEA Support for Peer Review and Risk Assessment Guidelines Activities, is a task
order contract which provides for services from August 1, 2002 through July 31, 2007.



                                                        2
Scope and Methodology

         To ensure that we accurately and comprehensively addressed the Complainant’s
         concerns, we interviewed the Complainant. We subsequently discussed in detail
         our understanding of the Complainant’s allegations, and reached agreement that
         we had stated the allegations fully and accurately. We requested any additional
         documentation in the Complainant’s possession which provided support for the
         allegations, and we reviewed the documentation subsequently provided that
         appeared relevant to the allegations.

         To identify EPA’s efforts to ensure that an adequate peer review was carried out,
         we interviewed NCEA’s Work Assignment Manager for the subject peer review
         task order and Versar’s Senior Project Manager for this order. We requested and
         reviewed all documentation concerning the peer review process and screened
         these documents for applicability to the allegations. We reviewed those
         documents relating to the establishment and selection of the peer review panel
         including, but not limited to, the work assignment authorizations for the peer
         review services, personal conflict of interest statements, resumes, records of
         discussions with panelists, and e-mail correspondence.

         We reviewed EPA’s Peer Review Handbook to determine Agency guidance for
         identifying and addressing potential conflicts of interest and bias issues. We also
         reviewed other government related peer review guidance (such as that used by the
         Science Advisory Board, National Academy of Sciences, or recommended by the
         Office of Management and Budget) to determine how these documents addressed
         the issue of balance in peer review panels. To enhance our understanding of the
         history and development of the Peer Review Handbook, we interviewed one of
         the two principal authors of EPA’s Handbook. Similarly, to enhance our
         understanding of the peer review balance and panel formation processes and
         procedures used by the Science Advisory Board, we interviewed the Science
         Advisory Board’s Director and an Ethics Official. We also reviewed prior
         General Accounting Office (GAO) and EPA OIG reports to identify any
         previously reported issues relevant to the questions we addressed in this review.

         To assess whether the panel’s input to the NCEA Assessment was biased, we
         obtained and reviewed (listened to) the entire audio tape of the two-day peer
         review meeting. Further, we had our OIG Certified Industrial Hygienist review
         the draft and final Summary Peer Review Report, which included all written
         comments from the peer review panelists. In addition, we obtained the responses
         of all 7 panelists to 13 questions about their perception of the peer review process,
         as well as detailed responses of 3 panelists to additional questions about the
         specific allegations directed at them. Also, at the request of panelist Dr. Eric
         Chatfield, we met with him and discussed his responses to the specific allegations
         made against him. In addition, our Certified Industrial Hygienist interviewed
         NCEA's Work Assignment Manager concerning the Manager’s efforts to

                                           3
           incorporate the recommendations made by the peer review panel about asbestos in
           NCEA's Final Assessment. However, since this work had not been completed at
           the time our field work ended, our Certified Industrial Hygienist was not able to
           confirm the extent to which the panel's recommendations about asbestos may or
           may not be included in NCEA's Final Assessment. Subsequent to the completion
           of our field work, the NCEA Work Assignment Manager indicated that all
           changes recommended by the panel were incorporated into the working draft of
           the Risk Assessment.

           To ensure that we accurately interpreted key criteria regarding these issues, our
           OIG Office of Counsel advised us on the applicability of the National
           Contingency Plan (NCP), Federal Acquisition Regulation, and Agency guidance
           on the peer review process. We performed our review and analysis from October
           2003 through June 2004 in accordance with Government Auditing Standards
           issued by the Comptroller General of the United States.

Prior OIG Re port

           EPA’s Selection of Peer Reviewers, EPA/OIG, Report No. 1999-P-217, September
           1999. The applicable findings of this report are discussed in Chapter 3.

Results in Brief
           The seven-member peer review panel selected to review NCEA’s draft report
           included one panelist with an extensive history of providing expert testimony and
           similar services for defendants in asbestos lawsuits, and two panelists who had
           made prior public statements regarding the safety of the air around the World
           Trade Center (WTC) site. These circumstances provided a basis for the
           perception that one panelist had a potential conflict of interest and two panelists
           had potential biases that would prevent them from providing impartial input.
           However, we did not find that the panel’s input was biased, nor that these
           perceived biases and conflicts were so “direct and substantial” that any of the
           panelists should have been excluded from the panel. None of the seven panelists
           had concerns about the way the peer review process was conducted.

           Nonetheless, given the highly sensitive and controversial nature of the subject, in
           our view additional measures should have been taken during the peer review
           selection process to disclose the information about panel members upon which the
           allegations of bias and conflicts were later made. Specifically, had EPA’s
           Contractor taken additional actions – such as inquiring about publicly expressed
           viewpoints on the subject matter – to disclose this information prior to the
           selection of the panel, EPA’s Contractor could have considered the need to
           balance the panel or otherwise resolve these perceived, potential conflicts and



                                            4
biases prior to conducting the July 2003 peer review. Regarding the six
allegations, we found that:

•	   The National Contingency Plan does not require, as alleged, that the public
     be given an opportunity to comment on the choice of peer review panelists,
     or the opportunity to suggest other experts who could represent the views of
     the community.

•	   Neither EPA nor its Contractor was required by Procurement Policy Notice
     95-04, as alleged, to evaluate the sensitivity of the work being performed
     when evaluating potential post-award conflicts of interest.

•	   EPA’s Contractor did not obtain as much information on prospective
     panelists as would be needed to adequately assess potential conflicts of
     interest and biases. Specifically, the Contractor did not inquire as to whether
     the three prospective panelists had received funding from industry, or had
     expressed viewpoints on the issues to be reviewed.

•	   The asbestos expert did not have a “direct and substantial” conflict of
     interest, as alleged, but there was a basis for the perception of a potential
     conflict of interest.

•	   The two panelists who had publicly expressed opinions regarding certain
     WTC hazards did not appear to have significant biases, as alleged, because
     the opinions expressed were either sufficiently qualified or not directly
     related to the subject matter to be peer reviewed.

•	   EPA or its Contractor could have taken additional measures to obtain more
     information on prospective panelists’ work experience and viewpoints,
     which would have necessitated additional actions on the part of EPA or the
     Contractor to assess the balance of the panel.

EPA’s Peer Review Handbook provides significant flexibility to the peer review
leader in forming a panel considering the range and variety of EPA scientific and
technical work products that are peer reviewed. The Handbook also
acknowledges that obtaining appropriate expertise may mean that some panelists
with potential conflicts and biases are nonetheless needed. We noted that the
Handbook did not always give sufficient instructions on how to define and treat
issues such as bias and panel balance, and additional guidance and training of
peer review leaders on handling sensitive or controversial peer reviews could be
helpful.




                                  5
Recommendations

         We are making a number of recommendations to EPA to better ensure that
         guidance in EPA’s Peer Review Handbook is fully followed, including (1) better
         oversight of peer review contracts to ensure that potential panelists are asked
         about the industry financing they have received, and their relationship with any
         clients whose interests might be affected by the subject being peer reviewed; and
         (2) supplemental guidance and training of peer review leaders regarding the types
         of information they may need to obtain about potential panelists’ opinions and
         viewpoints when they assess whether panels are independent and balanced.

Agency Comments and OIG Evaluation

         The Agency agreed with our draft report findings, conclusions, and
         recommendations. See Appendix C for the Office of Research and
         Development’s (ORD) response to our draft report. Additionally, in response to
         our draft report, on October 7, 2004, ORD issued Policy Announcement #NCEA-
         EM-05-01 which requires that specific conflict of interest (COI) provisions be
         included in task order statements of work for EPA peer reviews, unless these
         provisions are waived by the NCEA Director (see Appendix E for this Policy
         Announcement). These provisions adequately address many of our concerns.
         ORD also identified milestone dates for (a) developing additional guidance to
         supplement the existing EPA Peer Review Handbook, (b) revising existing
         training materials, and (c) developing a Peer Review Website. Further, ORD
         stated it would ask the Science Policy Council to adopt an Agency-wide policy
         directing its contractors to use the information-collection forms that are currently
         being used by the EPA Science Advisory Board and the National Academy of
         Sciences to aid staff in assessing peer review panel balance.

         We commend the Office of Research and Development and the National Center
         for Environmental Assessment for the actions already completed, ongoing, and
         planned to ensure that scientific and technical work products consistently receive
         adequate peer reviews. ORD’s completed and planned actions are summarized in
         the Corrective Action Plan (see Appendix D). Agency officials also made a
         number of technical comments and clarifications to our draft report, which we
         have included as appropriate.




                                          6
                                 Chapter 2
         Results of Review of the Six Allegations
          A discussion of each allegation and the results of our review follows.

Question 1:   Did the NCP Require Public Participation in Peer Review
              Panel Selection?

          The Complainant alleged that the public was not given an opportunity to
          comment on the choice of the seven panelists, or an opportunity to suggest other
          members who could represent the views of the community, as the complainant
          claimed was required by the National Contingency Plan (NCP). We found that
          neither the NCP nor the Peer Review Handbook require public participation in the
          selection of a peer review panel. Although the public did not participate in the
          selection of the panel, the peer review meeting was held in public and the public
          was given the opportunity to comment on the panel composition and the Draft
          Assessment during this meeting. Although the extent of this participation may
          have been less than the Complainant or others may have desired, the extent of the
          participation was consistent with Agency peer review guidelines and prior
          practices.

          The Handbook acknowledges the general principle that obtaining a peer review
          should be a transparent process: “Remember, the Agency is committed to
          working ‘as if in a fishbowl’ and most of its activities are transparent to the public
          (except where confidential business information is concerned).” The Director of
          EPA’s National Center for Environmental Research and Quality Assurance,
          Versar’s Senior Project Manager for the peer review of NCEA’s Draft
          Assessment, and NCEA’s Work Assignment Manager for the peer review told us
          there was no requi rement for public participation in t he peer review pro cess. We
          confirmed that this was the case during our examination of the NCP. The
          officials further stated that EPA has conducted numerous peer reviews in the past
          without allowing the public to suggest panelists or otherwise participate in the
          selection of panelists. The Director estimated that for every thousand panels EPA
          has convened, “fewer than ten would have public involvement” in the process of
          selecting panelists.

          Although the Handbook does not require the Agency to involve the public in the
          panel selection process, the public was involved in the peer review meeting.
          NCEA’s task order to Versar contained the following requirements with respect
          to public participation:

          •	 the peer review meeting would be announced to the public though a Federal
             Register Notice;



                                            7
          •	 the deliberations of the panel would be open to the public;

          •	 there would be a 2 to 3 hour period during which the public could address the
             panel with specific comments;

          •	 each person who asked to address the panel would be granted 5 minutes to
             address the meeting; and

          •	 the public could also submit comments in writing.

          Based on our review of the audio tape and other documentation of the peer review
          meeting, these requirements were fulfilled. For example, several individuals from
          the general public accepted the opportunity to communicate directly with the
          panelists. In addition, NCEA’s Draft Assessment was made available to the
          public prior to the meeting and comments were accepted from the public.
          Additionally, the public was allowed to submit comments after the peer review
          meeting to be included in the peer review summary report. The summary report
          has also been made available to the public via EPA’s public website.

Question 2:	 Was NCEA Obligated by Procurement Policy Notice
             95-04 to Evaluate the Sensitivity of the Work Being
             Performed?

          The Complainant alleged that EPA did not follow the procedures outlined in
          “EPA Procurement Policy Notice No. 95-04, Procedures for Handling Post
          Award Organizational Conflicts of Interest” to address potential conflicts of
          interest as defined in Federal Acquisition Regulation (FAR) Section 9.501. The
          Complainant alleged that the Procurement Policy Notice provides specific
          questions that EPA should ask contractors to determine whether potential
          conflicts of interest exist, and requires EPA to evaluate the sensitivity of the work
          being performed by the Contractor.

          EPA’s Procurement Policy Notice No. 95-04 provides guidance for evaluating
          potential organizational conflicts of interest and does not apply to individual
          potential conflicts of interest pertaining to a peer review panelist. The
          requirements of the Procurement Policy Notice apply only to the government-
          contractor relationship and to potential organizational conflicts of interest that a
          contractor may have related to the work being performed for EPA.

          We also reviewed the Peer Review Handbook for guidance on how potential
          conflicts of interest discovered after the selection of a panel should be addressed.
          The Handbook provides considerable guidance on how to address potential
          conflicts of interest in selecting the panel; however, it does not include guidance
          for handling potential conflicts of interest discovered after the panel had been
          selected.


                                            8
Question 3: 	 Was NCEA Obligated to Ensure that Its Peer Review
              Con tracto r Req uired Pote ntial P anelis ts to D isclos e All
              Substantial Public Statements and All Business
              Relationships?

            The Complainant alleged that EPA did not require its Contractor to obtain all
            relevant information from potential panelists, including asking potential panelists
            whether they had made prior public statements about WTC hazards, or to require
            full disclosure of business relationships with industries that would be affected by
            EPA’s findings on WTC exposure hazards. We found that EPA’s Contractor did
            not obtain all the necessary information on prospective panelists that would be
            needed to adequately assess potential conflicts of interest and biases. For
            example, the Contractor did not inquire as to whether the three prospective
            panelists had received funding from industry, or had expressed viewpoints on the
            issues to be reviewed.

            EPA Guidance for Using Contractors to Arrange for Peer Review
            Services

            The Handbook includes specific requirements and procedures to be followed
            when EPA uses a contractor to arrange for peer review services. The Handbook
            states that:

                     The Statement of Work (SOW) must clearly specify that the
                     contractor is responsible for preparing peer review evaluations
                     and set forth guidelines for the peer review of scientific or
                     technical documents. The contractor may perform the peer
                     review with in-house staff, subcontractors, or consultants. Any
                     guidelines for performing peer reviews to ensure soundness and
                     defensibility must be developed by the program office and made
                     part of the contract. The contractor would then ensure that peer
                     reviews adhere to the guidelines.

            According to the Handbook, the Statement of Work should direct the contractor
            “ . . . to inquire whether prospective peer reviewers have any actual or potential
            organizational or personnel conflicts of interest or other matters that would create
            the appearance of a lack of impartiality, including whether they have had or
            presently have a financial relationship with EPA.” According to the Handbook,

                     When the peer review process is being conducted by a
                     contractor, the requirement for addressing peer reviewer’s
                     possible conflicts of interest should be highlighted in the
                     Statement of Work of the work ordering instrument (e.g., Work
                     Assignment, Delivery Order, Task Order, etc.) and is a matter
                     that is bound by contractual clauses with the Contracting
                     Officer as the final Decision Maker in contracting matters.

                                             9
When contracting for peer review services, EPA officials cannot select the peer
reviewers. Such action would interfere with the contractor’s authority and
responsibility to perform the work under contract. EPA officials can establish the
criteria for the type of individual that might participate on a peer review panel,
but they should avoid commenting on the contractor’s selection of peer review
panelists other than to determine whether the panel, once selected, meets the
criteria established.

EPA’s Peer Review Guidance does not specifically require EPA – or its
contractor when conducting the peer review for EPA – to specifically ask
panelists about their prior public statements, if any, related to the matters to be
peer reviewed, and no attempt was made to obtain prospective panelists’
viewpoints on the subject matter for this peer review. However, the Peer Review
Handbook states that a panel should represent a balanced range of technically
legitimate viewpoints, and in general, panelists who have publicly commented on
the subject should be avoided. Accordingly, it would be difficult to adequately
carry out the intent of EPA’s Peer Review Handbook without obtaining
information on prospective panelists’ stated positions or viewpoints.

NCEA’s Actions to Ensure that Potential Conflicts of Interest or
Biases Were Identified

NCEA’s contract with Versar identified the actions that Versar was to take to
ensure that potential conflicts of interest or biases were identified prior to
selecting the peer review panel. Among other things, this contract defined a
conflict of interest and required Versar to include a substantially similar definition
in any subcontract or consultant agreement which provided services for the
contract. NCEA’s contract with Versar required Versar to obtain:

         recognized, independent peer-reviewers who will provide
         impartial evaluations of NCEA products . . .[and] peer
         reviewers . . . shall be free of real or perceived conflicts of
         interest, and shall represent a balanced range of technically
         legitimate points of view and disciplinary mix.

NCEA’s task order to Versar for the peer review of NCEA’s Draft Assessment
contained a statement of work which identified areas of expertise that were
desired for the peer review panelists. However, NCEA’s task order did not
specifically discuss conflicts of interest or biases but contained a requirement that
NCEA may, after receiving the list of potential panelists, provide feedback to
Versar concerning “any known conflict of interest, or concern about the
appropriate expertise.”




                                  10
Contractor’s Actions to Identify Potential Conflicts of Interest or
Biases

Versar took actions to identify potential conflicts of interest but did not take all
of the actions that were required by its Contract with NCEA or the actions that
were prescribed in its own internal guidance documents. Versar took the
following principal actions to identify conflicts of interest:

•	   screened potential panelists to obtain diversity;
•	   discussed conflicts of interest with seven candidates over the telephone
     before their selection (according to Versar’s Senior Project Manager);
•    obtained personal conflict of interest statements from each selected panelist
     before the peer review meeting was held on July 14, 2004;
•	   obtained resumes from each of the panelists, which should have disclosed
     important working relationships; and
•	   required each panelist to orally discuss or confirm the absence of a conflict of
     interest at the beginning of the peer review meeting.

Versar identified at least 45 potential panelists before selecting 7 to serve as peer
reviewers. Six of the seven panelists had performed some work related to the
collapse of the WTC towers. In accordance with the requirements in NCEA’s
task order, Versar sought experts with different backgrounds and different areas
of expertise. Versar’s intent to get different viewpoints on the panel is illustrated
by the fact that one candidate panelist was “not called” because he was known to
collaborate with someone who had already been selected, or was likely to be
selected, for the panel. Further, Versar excluded at least three other prospective
panelists from consideration because of potential conflicts of interest or their
work relationships.

Contractor Did Not Fully Follow Guidance for Identifying Conflicts

The work assignment authorizations used by Versar to obtain the services of peer
review panelists did not define conflicts of interest or require panelists to report
conflicts of interest as required in its contract with NCEA. Further, Versar did
not take all of the actions which were prescribed in its own guidance documents
for identifying potential conflicts of interest. In particular, Versar did not inquire
specifically about industry funding of each panelist’s work or each panelist’s
working relationships with companies that might have a vested interest in the
results of NCEA’s Draft Assessment. Such questions are important in uncovering
potential conflicts of interest.

Versar’s generic Conflict of Interest Management Plan required that
subcontractors and consultants (selected panelists) perform “screenings” for
conflicts of interest and report the results of such screenings to Versar. The
screenings were to include, at a minimum, the identification of former and present
clients at the site where work is or has been performed, the type of work
performed, and the period of the performance. However, Versar did not follow

                                  11
this guidance. Versar did not ask panelists to identify their clients whose interests
might be affected by conclusions that could be drawn about WTC issues. When
they submitted their resumes and personal conflict of interest statements to
Versar, several panelists identified work they had completed related to the
conditions at the WTC site. However, panelists were selected without specific
questions being asked concerning the possible interest of the panelists’ present or
prior clients.

We reviewed a written script that Versar reportedly used to interview potential
panelists over the telephone. The script contained a definition of conflict of
interest which, according to Versar’s Senior Project Manager for the peer review,
was read over the phone to each panelist and discussed with them. This definition
embodied the principal concept of objectivity and impartiality that is contained in
EPA’s Handbook and NCEA’s Contract with Versar. The script also contained
the following questions:

         Are you doing other work at the World Trade Center currently?
         For whom? Other work at the WTC is not necessarily a COI
         (conflict of interest), we just need to be aware and disclose this
         information. In fact we see it as a potential asset.

         Are you receiving funding from EPA currently? For what types
         of projects? Anything else to disclose that might be related to
         this review?

Versar’s Senior Project Manager’s notes, which summarize his telephone
discussions with the seven panelists who were ultimately selected, indicate that he
specifically discussed conflicts of interest with potential panelists. For example,
one panelist, who was not cited in any of the allegations, expressed concern that
he might have a conflict of interest because he mistakenly thought a paper he had
co-authored concerning the WTC may have been partially funded by EPA. Aside
from the documentation that indicates conflicts of interest were discussed orally
with potential panelists, each panelist signed a personal conflict of interest
statement that affirmed they did not have a conflict of interest.

The script did not include the following question that is contained in Versar’s
standard operating procedures document entitled: Summary of Versar’s Conflict
of Interest Screening and Certification for Peer Reviewers Under NCEA Peer
Review Contracts:

         Are you receiving funding from industry for efforts that might
         be related to this document?

We contacted the Versar Project Manager to determine why this question was not
asked but had not received a response at the time this report was prepared. The
NCEA work assignment manager told us he was satisfied that the panel met the
criteria established for this panel.

                                 12
Question 4:    Did the As bestos E xpert Hav e a Con flict of Interest?

          The Complainant alleged that one panelist, Dr. Eric Chatfield “. . . is a paid
          expert witness for W.R. Grace & Co., the firm responsible for the asbestos
          contamination in homes in Libby, Montana . . . ” and “In an expert report dated
          8/30/02, Chatfield strongly opposed EPA’s analytical evaluation of risks in homes
          in Libby.” The Complainant further alleged that the resume that Dr. Chatfield
          submitted to Versar did not disclose this working relationship. The Complainant
          alleged that this relationship represented a conflict of interest since W.R. Grace &
          Co. was involved in litigation with the U.S. Department of Justice over
          responsibility for removing asbestos contamination in Libby. We determined that
          the asbestos expert did not have a “direct and substantial” conflict of interest, as
          alleged, but there was a basis for the perception of a potential conflict of interest.

          Handbook Definition of Conflict of Interest and Procedures for
          Handling

          EPA’s Peer Review Handbook defines a conflict of interest as follows:

               Conflict of interest is a situation in which, because of other activities or
               relationships with other persons, an individual is unable or potentially
               unable to render impartial assistance or advice to the Agency, or the
               person’s objectivity in performing the work is or might be otherwise
               impaired, or a person has an unfair competitive advantage.

          Further, the Handbook states that a conflict of interest may exist when a panelist’s
          “professional standing and status or the significance of their principal area of
          work might be effected by the outcome of the peer review.” The Handbook does
          not specifically define “bias,” but notes that the desire to select individuals with
          experience on a panel often comes from those who are considered as having a
          potential bias.

          The Handbook discusses techniques to help ensure disclosure and appropriate
          resolution of potential conflicts of interest. Section 3.4.6 states:

               One way of identifying conflicts of interest is to ask potential reviewers
               about current and prior work, and prior clients that might create conflicts
               or the appearance of a lack of impartiality in carrying out peer review
               activities. . . .

          The Handbook also states that each potential conflict of interest situation is
          unique and must be treated on a case-by-case basis. The Handbook lists certain
          factors that should be considered in evaluating potential conflicts of interest.
          These factors include:

          •	   attention to employment, financial, and professional affiliations of the
               participants;

                                             13
•	   exploring directly the issue with each of the participants before the review
     process takes place;

•	   disclosing publicly at the beginning of meetings any previous involvement
     with the issue; and

•	   providing non-Federal peer reviewers with a copy of the peer review inquiry
     conflict of interest form, and conducting a follow-up discussion to discuss
     any relevant issues.

The Handbook offers additional guidance on when a person with a potential
conflict of interest can be used on a panel and when such a potential conflict of
interest would result in a person’s exclusion from the panel. According to the
Handbook,

     In fact, experts with a stake in the outcome - - and therefore a potential
     conflict - - may be some of the most knowledgeable and up-to-date experts
     because they have concrete reasons to maintain their expertise. Such
     experts could be used provided the potential conflicts of interest are
     disclosed and the peer review panel or group being used as a whole is
     balanced. In some cases, however, the conflict may be so direct and
     substantial as to rule out a particular expert. . .

The Handbook’s general definition of conflict of interest that would likely result
in a prospective panelist’s exclusion from a panel is as follows:

     Generally, a conflict of interest arises when the person is affected by
     his/her private interests, when he/she or his/her associates would derive
     benefit from incorporation of their point of view in an Agency product, or
     when their professional standing and status or the significance of their
     principal area of work might be affected by the outcome of the peer
     review.

Those in charge of panel formation are encouraged to consult with EPA’s Office
of General Counsel “whenever there are questions about conflicts of interest.”

Disclosure of Dr. Chatfield’s Work Experience

In regard to the alleged incompleteness of Dr. Chatfield’s resume, the resume he
provided to Versar did not specifically disclose his working relationship with
W.R. Grace & Co. In our view, this relationship should have been disclosed to
the contractor during the screening process. However, Dr. Chatfield’s 30-page,
single-lined resume identified approximately 75 instances where he had acted on
behalf of one or more defendants in litigation by providing “depositions,”
“certifications,” “affidavits,” “declarations,” or “expert testimony.” While not all
of these instances may have involved asbestos, his resume disclosed that he had
been an “expert witness on behalf of several defendants in asbestos property

                                 14
damage suits” and “asbestos personal injury suits.” Accordingly, it should have
been clear to NCEA and Versar officials, as well as other panelists, that Dr.
Chatfield had extensive working relationships with asbestos companies, such as
W.R. Grace & Co., and other defendants in asbestos cases.

According to the Complainant, Dr. Chatfield’s relationship with W.R. Grace &
Co. was significant because as part of its legal defense, W.R. Grace & Co. was
using comparisons of the cleanup standards required in Libby, Montana, to the
cleanup standards being used around the WTC. Specifically, W.R. Grace & Co.
was asserting that it was being held to a higher standard in removing asbestos
contamination from buildings in Libby, even though they contended that the
contamination levels in Libby were not as bad as the contamination levels in
buildings around the WTC.

In regard to the extent of Dr. Chatfield’s relationship with W.R. Grace & Co., he
maintains that his work for W.R. Grace & Co. involved minimal time and effort,
involving less than 2 weeks total effort, and was not significant in relation to his
many other activities, especially since he was never called to testify. A brief
chronology of his work for W.R. Grace & Co. follows:

•	   Hired by W.R. Grace & Co. on August 6, 2002, for the purpose of being an
     expert rebuttal witness concerning data that were obtained by EPA using an
     analytical method which Dr. Chatfield developed.

•	   Submitted a report dated August 30, 2002, rebutting the analytical work done
     by EPA’s Contractor concerning air samples at Libby by transmission
     electron microscopy. The report documented cases of misidentification of
     fibers and misuse of the analytical method.

•	   Deposed by a U. S. Department of Justice attorney on September 29, 2002.

•	   In anticipation of a January 2003 trial, he made one visit to the attorney
     representing W.R. Grace & Co. to discuss this matter.

•	   Contractual services for W.R. Grace & Co. terminated in January 2003, when
     the parties settled out of court.

Dr. Chatfield stated that as a rebuttal witness for W.R. Grace & Co., his work was
limited in that he could only rebut the evidence proffered by others in this matter,
and could not introduce any unsolicited views. Dr. Chatfield also explained that
he had never been a consultant for W.R. Grace & Co., but only an expert witness
hired to provide testimony on data gathered by an analytical method which he
helped to develop in the late 1970s. We did not identify any documentation that
challenged Dr. Chatfield’s statements that he did “. . . less than two weeks work”
or that he has “. . . never been a consultant for W.R. Grace either before or after
this limited assignment.” In addition, the allegations pertaining to Dr.
Chatfield’s relationship with W.R. Grace & Co. were raised at the public peer

                                  15
review meeting, and were fully disclosed to other panelists at the meeting. The
Peer Review Handbook notes that full disclosure and discussion of potential
conflicts of interest before the entire panel is one method for resolving such
conflicts.

Our review of Dr. Chatfield’s past work as detailed in his resume did not identify
any other work relationships between Dr. Chatfield and W.R. Grace & Co.
Additionally, the work relationship between Dr. Chatfield and W.R. Grace & Co.
did not appear to involve significant time and effort. Thus, this potential conflict
of interest was not sufficiently “direct and substantial,” as discussed in EPA’s
Peer Review Handbook, to warrant Dr. Chatfield’s exclusion from the panel.

Notwithstanding Dr. Chatfield’s limited relationship with W.R. Grace & Co., the
fact that he had many working relationships with many asbestos companies over
the years is a basis for a perception that he may have a potential conflict of
interest. Accordingly, we evaluated his input to the peer review (both oral and
written comments) for any indication of bias. We did not identify any biased
input. During the peer review meeting and through his written peer review
comments, he called for treating information cautiously. For example, he
recommended that:

•	   NCEA’s Final Assessment state specifically that there are a number of
     potential contaminants which have not been measured and that uncertainty
     remains, and he encouraged governmental officials to identify the limitations
     of their work; and

•	   all dust samples be treated as if they contained one half percent to 3 percent
     asbestos, even when a dust sample was reported to be free of asbestos.

Further, Dr. Chatfield did not comment on the health implications of the data. He
told us that his area of expertise is asbestos sampling and analytical methodology,
and that he did not feel qualified to address health issues. He told us that he does
not make statements about health effects, but instead evaluates considerations
such as sampling methodology and data quality.

Also, in a report on asbestos concentrations measured in two apartments near the
WTC site, Dr. Chatfield recommended that nearby residents obtain professional
cleaning of their residences at a time when the government was advising the
public to clean their own residences with wet rags, wet mops, and vacuums with
HEPA (high efficiency particulate air) filters as long as there was less than
1 percent asbestos in dust samples. The positions taken by Dr. Chatfield in his
peer review of NCEA’s Draft Assessment did not reflect biases on behalf of any
asbestos company or an asbestos industry that retained his services in the past. In
summary, Dr. Chatfield’s relationship with W.R. Grace & Co. did not present a
“direct and substantial” conflict of interest as alleged, but there was a basis for the
perception of a potential conflict of interest.


                                  16
Question 5:   Did Two Panelists Have Biases Based on Their Prior
              Stated Conclusions Regarding WTC Health Hazards?

          The Complainant alleged that two panelists, Dr. Alison Geyh and Dr. Patrick
          Kinney, “ . . . are known to have advised the public through the press that there
          were no hazards from WTC exposures. Their statements are prejudicial, making
          it difficult for them to change their opinions at this later date to agree with any
          EPA conclusions . . . that there are potential or real risks from WTC exposures. ”
          The Complainant asserted that potential liability issues for these individuals or
          their parent institutions would make it “difficult if not impossible” to agree with
          any of the draft report’s conclusions that differed from their prior public
          statements about the health risks. We evaluated the public statements attributed
          to Dr. Geyh and Dr. Kinney to determine whether they demonstrated that these
          panelists had “clearly taken a side” and whether these statements represented a
          “direct and substantial” conflict as discussed in EPA’s Handbook. In our opinion,
          these two panelists did not appear to have significant biases because the opinions
          expressed were either sufficiently qualified or not directly related to the subject
          matter to be peer reviewed.

          EPA Guidance on Bias

          The Handbook does not specifically define bias but discusses how a potential bias
          could impact panel formation. In discussing considerations for selecting peer
          reviewers, the Handbook recognizes that a panel can be comprised of individuals
          who are considered to have a potential bias and that this concern can be addressed
          by ensuring that the panel is balanced. The Handbook states that:

              . . . the very need to have experienced individuals on a peer review, along
              with the desire to have appropriate technical balance and representation,
              can mean that the selection of potential peer reviewers often comes from
              those who are considered as having a potential bias. To reduce the
              concern that a potential panel may have unnecessary bias, it may be
              useful to obtain an informal review of the expertise and balance of
              potential peer reviewers from others in your organization, from OGC or
              even from outside groups . . . .

          The Handbook provides additional discussion on the proper mix of a panel, and
          notes that:

              As a general rule, experts who have made public pronouncements on an
              issue (e.g., those who have clearly ‘taken sides’) may have difficulty in
              being objective and should be avoided.




                                           17
Dr. Geyh’s Public Statements

The Complainant provided two news articles that contained quotations attributed
to Dr. Geyh, an assistant professor of environmental health sciences at Johns
Hopkins University Bloomberg School of Public Health. The two news articles
contained her comments about a research study that she directed. The
Complainant has not alleged that Dr. Geyh misinterpreted or misrepresented the
results of her research study. This study concerned WTC cleanup workers, not
the general public; thus, the focus of her study is different than NCEA’s Draft
Assessment. The principal quotations attributed to Dr. Geyh by one news article
were:

   Many of the workers we assessed reported coughing, wheezing, and sore
   throats while working at Ground Zero. These symptoms seemed to
   increase the longer they worked at the site. The good news is that we did
   not find unhealthy levels of asbestos but we don’t know what the long term
   health risks may be regarding exposure to other airborne contaminants at
   the site.

A second news article reported that Dr. Geyh said there was no sign of lung
obstruction, and quoted her as saying, “For the general community this is a very
good story . . . ”

We provided Dr. Geyh with a copy of the Complainant’s allegations about her
prior public statements. Dr. Geyh specifically denied stating there were no
hazards associated with exposures at the WTC site, as alleged. Further, she noted
that her statement about asbestos levels was “based on results of my own airborne
asbestos monitoring data collected directly on the disaster site,” and that none of
her research involved residents, office workers, or first responders. She told us
that:

   I have no data regarding these groups and have made no definitive
   statements or come to any definitive conclusions about the relationship
   between asbestos levels and these groups.

We found that Dr. Geyh’s statements reflected the factual results of her research
study. Additionally, during the peer review, she noted the limitations of existing
test data and the need for more data about the potential long-term health risks
associated with exposures at the WTC site. As such, her statements did not
demonstrate that she had “taken sides” with respect to the issues being peer
reviewed. We concluded that any potential biases arising from these statements
were not so material as to warrant her exclusion from the panel. However, the
fact that such opinions were expressed provided a basis for the perception that
there may have been a bias, and supports the need for EPA or its Contractor to
improve their efforts to ensure that peer review panels as a whole are balanced.



                                 18
Dr. Kinney’s Public Statements

The Complainant provided several news articles that contained quotations
attributed to Dr. Kinney. The principal quotations attributed to him by the news
articles were:

   The data that has been collected so far do not show concentrations of
   pollutants that are of concern . . . Based on what we know so far, there
   is no cause for alarm. . . . For the general public, as long as we are
   careful, I think the risks are quite low. . . . I do not think it was unwise to
   have people start repopulating the area [near the World Trade Center].
   However, not all of the pollutants that you might want to look at have
   been monitored or, at least, reported yet. So the database is incomplete.

We provided Dr. Kinney with a copy of the Complainant’s allegations about his
prior public statements. He agreed that he had made these statements, but denied
that it biased his input during the peer review. His written response to us included
the following statement:

   I never feel at all ‘prejudiced’ by a previous view I have held if new
   information points in a different direction. . . . I’m perfectly willing to
   change my mind on any issue based on new evidence. This is generally
   the way scientists behave.

Our review of Dr. Kinney’s written peer review comments indicated that he, in
fact, had advocated alerting the public to potential asbestos risks. He noted:

   It would be good to append a concluding sentence to the effect that these
   data support the conclusion that the WTC collapse resulted in increased
   indoor asbestos levels in lower manhattan.

Dr. Kinney also advocated that NCEA provide more information in its assessment
and clearly communicate the potential risks to the public. For example, Dr.
Kinney’s written comments expressed concern that the public may obtain an
unwarranted sense of comfort from the wording in NCEA’s Draft Assessment
regarding occupational benchmarks. He noted that:

    . . . the use of a health benchmark in a screening exercise is only valid if
   the health benchmark is appropriate for the population at risk, which I
   think is somewhat problematic here where occupational benchmarks are
   being used to screen risks in the general population. . . . somewhere early
   in the executive summary there needs to be a short paragraph explaining
   why occupational standards may not be directly relevant to general
   population health risk assessment, including issues of voluntary and
   compensated risks vs. involuntary risks, healthy workers vs. widely
   varying susceptibilities in general population. This very important point
   will not be obvious to the general reader.

                                 19
Further, Dr. Kinney’s oral comments during the peer review meeting July 14-15,
2003, showed his concern about the need for a comprehensive review of indoor
air data and the need for EPA to earn the public’s trust by advocating the use of
the National Academy of Science’s panel model to obtain an unimpeachable
review of indoor air issues:

   I would like to encourage them [EPA] to consider the advantages of
   having an independent scientific group take the lead on organizing it [an
   indoor air study or compilation of indoor air studies] mainly from the point
   of view that - the credibility of the results would probably be enhanced
   substantially over a purely sort of EPA or government- agency sponsored
   or centered effort. So, given the controversies that have existed to date, I
   think one way to sort of resolve the issues -- these really important issues
   about indoor air and exposure of health -- in a way that everybody is
   satisfied with, would be to get a bunch of external people . . . I am sort of
   thinking of the National Academy of Science’s panel model, where on
   controversial issues, often government agencies will commission the
   National Academy of Science to form an independent group of scientists to
   go over an issue . . .

We also noted that Dr. Kinney’s detailed written peer review comments reiterated
his concern about the incomplete database. He stated that:
    I believe that the overall conclusions of the evaluation are reasonable
    given the available data . . . The report [NCEA’s Draft Assessment] is
    careful to point out that these are preliminary conclusions based on
    available data and that conclusions could change when new information
    becomes available.

Considering the qualification that was contained in the news article, Dr. Kinney’s
advocacy of full disclosure, his concern that the public understand the potential
health risks, and the overall professional and constructive nature of the comments
that Dr. Kinney made during the peer review process, his statements did not
demonstrate that he had “taken sides” with respect to the issues being peer
reviewed. We concluded that any potential biases arising from the statements
cited by the Complainant were not so material as to warrant Dr. Kinney’s
exclusion from the panel. However, the fact that such opinions were expressed
provided a basis for the perception that there may have been a bias, and supports
the need for EPA or its Contractor to improve their efforts to ensure that peer
review panels as a whole are balanced.

ORD’s Perspective

ORD agreed that Versar could have done more to ensure balance regarding the
viewpoints held by prospective panelists, but ORD emphasized that Versar sought
balance regarding “scientific expertise,” and ORD further stated that:




                                20
                    For this highly visible World Trade Center Assessment, the contractor, at
                    EPA’s direction, sought panelists who were familiar with the complex
                    issues presented by this unique environmental disaster, even to the point
                    of seeking out scientists who had conducted related research of their own
                    on World Trade Center exposure and health impacts. The two scientists
                    who had made the public comments noted in the complaint have both
                    conducted World Trade Center exposure and health impact studies that
                    ORD considers to be of high quality, and their input to the review spoke of
                    their familiarity and expertise with the issues. In cases such as this, a
                    strict adherence to a policy of avoiding scientists who have spoken on the
                    topic being reviewed may not be warranted.

Question 6:	 Did E PA’s Con tracto r Ade quate ly Con sider Bala nce in
             Selec ting th e Pan el?

                In expressing concerns about potential conflicts and biases with the panel, the
                Complainant noted that a wide divergence of opinions could be accommodated in
                a large balanced panel of expert scientists, but had concerns about a panel that
                only consisted of seven members for this peer review. In light of the allegations
                that certain panel members may have been biased in their points of view, we
                reviewed Versar’s efforts to ensure that the panel was balanced. We believe EPA
                or its Contractor could have taken additional measures to obtain more information
                on prospective panelists’ work experience and viewpoints, which would have
                necessitated additional actions on the part of EPA or the Contractor to assess the
                balance of the panel. For example, as noted in Section 4, Versar did not ask
                panelists to identify their present or prior clients whose interests might be affected
                by conclusions that could be drawn about WTC issues.

                EPA Guidance Concerning Panel Balance

                According to EPA’s Peer Review Handbook,“the peer reviewers of a work
                product should represent a balanced range of technically legitimate points of
                view.” The Handbook also points out that “cultural diversity and ‘address’ (e.g.,
                industrial, academic, or environmental community) are other factors that can play
                a role in selecting peer reviewers.”

                The Handbook does not provide specific examples of inquiries that should be
                made to ascertain whether a panel “as a whole” is balanced with respect to
                viewpoints, but notes that established peer review groups such as EPA’s Science
                Advisory Board (SAB) provide useful models for addressing balance and conflict
                of interest issues. As noted in a recent GAO report,2 when selecting SAB
                panelists EPA specifically asks prospective panelists for information about their
                points of view related to the issue being reviewed.


        2
         Federal Advisory Committees: Additional Guidance Could Help Agencies Better Ensure Independence
and Balance, U.S. Ge neral Acc ounting O ffice, Rpt. N o. GAO -04-328, A pril 2004.

                                                    21
         Contractor’s Efforts To Balance The Panel

         The statement of work in NCEA’s’s task order to Versar identified areas of
         expertise that were “desired” for the peer review panel. As required by EPA,
         Versar selected the 7 panelists from these areas. Although Versar took several
         steps to balance the panel, we saw no evidence of any special actions or
         considerations by Versar to ensure that the peer review panel for the NCEA Draft
         Assessment was balanced with respect to the specific allegations of the
         Complainant. As noted earlier, Versar did not inquire as to whether prospective
         panelists had publicly expressed viewpoints on the peer review subject matter.
         Accordingly, no consideration was given to the need to balance the panel with
         respect to publicly expressed viewpoints on the subject matter. We contacted the
         Versar Project Manager to determine whether other actions were taken to balance
         the panel, but we had not received a response at the time this report was prepared.

         Panelists’ Perspective on the Need To Balance WTC Draft
         Assessment Panel

         We contacted each of the panelists to obtain their opinions on the balance of the
         WTC Draft Assessment Panel as a whole. Each panelist expressed his or her
         opinion that the panel, as a whole:

         •    contained the right mix of expertise,

         •    had an appropriate balance of ideas and opinions,

         •    examined the issues with an appropriate degree of balance, and

         •    allowed the expression of minority views.

         None of the seven panelists had concerns about the way the peer review process
         was conducted. As shown in Appendix B, the peer review panelists’ backgrounds
         included a variety of employers and technical expertise.

Conclusions

         Additional measures could have been taken to identify potential biases and
         conflicts with prospective panel members. For example, EPA could have had its
         Contractor ask prospective peer review panelists if they had publicly expressed
         viewpoints – a procedure used in selecting EPA Science Advisory Board
         committees – regarding the issues to be peer reviewed. Further, EPA’s
         Contractor did not take all the actions required by its contract with EPA, nor did
         the Contractor take all the actions prescribed in its own internal guidance
         documents. Had such measures been taken, it is likely that EPA’s Contractor
         would have disclosed potential conflicts and perceived biases prior to formulation
         of the panel. As such, the Contractor could have identified the need to assess the


                                          22
         balance of the panel and taken steps to mitigate these perceived conflicts or
         biases.

         Neither the statements made by the two panelists nor the work relationships of
         one panelist were so “direct and substantial” as to warrant their exclusion from
         the panel. Further, our review of the panel’s deliberations, comments, and peer
         review record did not disclose any biased input in the peer review process, and
         none of the panelists had concerns about the way the peer review process was
         conducted. However, in selecting future panels for sensitive or controversial
         issues, EPA and its contractors should take steps to identify prospective panelists’
         viewpoints on the subject being reviewed, including prior public statements, and
         evaluate the need to resolve any potential biases disclosed through these actions,
         including whether the viewpoints of the panel should be balanced as a whole.

Recommendation

         2-1    We recommend that the Director, National Center for Environmental
                Assessment, implement procedures to ensure that guidance in EPA’s Peer
                Review Handbook is followed in carrying out NCEA peer reviews,
                specifically that:

                a.	 NCEA’s peer review contracts, as well as any EPA peer review
                    Contractors’ consultant agreements and subcontracts, contain written
                    guidance concerning information to consider when evaluating
                    potential conflicts of interest and biases, and

                b.	 NCEA’s potential panelists are asked about the industry financing they
                    have received, and their relationship with any clients whose interests
                    might be affected by the subject being peer reviewed.

Agency Comments and OIG Evaluation

         The Agency agreed that the contractor should have gathered more information
         from the prospective panelists and that ORD “should provide written guidance
         and detailed instructions to its peer review contractors concerning potential COI
         and biases.” On October 7, 2004, ORD issued Policy Announcement #NCEA-
         EM-05-01, which requires that specific conflict of interest (COI) provisions be
         included in task order statements of work for peer reviews, unless these
         provisions are waived by the NCEA Director (see Appendix E for this Policy
         Announcement). These provisions adequately address our concerns. ORD did
         not request any changes in the draft report wording of Chapter 2 except for the
         addition of a few words to our first recommendation. We made the requested
         change to reflect our agreement with ORD.




                                          23
                                Chapter 3
    Observations on Panel Formation and Balance
         In addressing the six questions discussed in Chapter 2, we relied heavily upon
         EPA’s Peer Review Handbook for guidance and criteria in evaluating EPA’s and
         its Contractor’s actions in conducting the peer review. The Handbook was
         viewed as the key guidance on how to conduct an EPA peer review. We noted
         that the Handbook did not always give sufficient instructions on how to define
         and treat issues such as bias and panel balance. Accordingly, we contacted EPA
         officials who helped develop the Handbook to better understand the intent of the
         Agency’s guidance. Based on our review of the Handbook, our discussion with
         these EPA officials, and the issues discussed in Chapter 2, we believe EPA’s
         Handbook should be supplemented with additional instructions on how EPA and
         its contractors should select panels for highly controversial and sensitive issues,
         such as the risk assessment conducted for the WTC Draft Assessment.

Handbook Guidance on Panel Balance

         EPA’s Peer Review Handbook says that “As a general rule, experts who have
         made public pronouncements on an issue (e.g., those who have ‘taken sides’) may
         have difficulty in being objective and should be avoided,” and that EPA is
         “strongly encouraged to obtain peer reviewers who do not have a legal or
         perceived conflict of interest.” Further, EPA is to exercise an extra degree of care
         in selecting panelists on sensitive or controversial issues, which in our view
         includes EPA’s Draft Assessment on exposure and health risks from air pollution
         after the collapse of the WTC towers. However, EPA’s Peer Review Handbook
         also notes that obtaining appropriate expertise may mean that some panelists with
         potential conflicts and biases are nonetheless needed. For example, the
         Handbook notes that key methods for handling such concerns involve, among
         other things, full disclosure of potential conflicts of interest and ensuring that the
         panel is balanced as a whole.

Experts’ Comments on EPA’s Peer Review Handbook

         EPA’s Peer Review Handbook states that established peer review groups, such as
         EPA’s SAB, provide useful models for addressing balance and potential conflict
         of interest issues. As such, we discussed these issues with four knowledgeable
         experts on peer review issues – one of the principal authors of EPA’s Handbook,
         the Director of EPA’s SAB, an SAB Ethics Official, and a former EPA Office of
         General Counsel Attorney who advised the authors of the Handbook.

         The principal author of the Handbook we contacted told us that, in creating the
         Handbook, the authors had not intended to provide a “cook book” but had,
         instead, intended to provide a generic document that provided significant

                                           24
                 flexibility to the peer review leader in forming a panel considering the range and
                 variety of EPA scientific and technical work products that are peer reviewed. He
                 and the SAB Director noted that the Handbook allows the peer review leader to
                 consider the sensitivity or controversial nature of the work product, and the
                 importance of the document for Agency decision-making, as well as the cost and
                 time required. They noted both cost and time can increase dramatically with
                 more elaborate peer reviews.

                 In summary, they believed that the existing Peer Review Handbook, if properly
                 implemented, generally provides sufficient guidance and flexibility for carrying
                 out an effective peer review. The Handbook’s principal author also noted that
                 revising the Handbook would require a great deal of effort. Nonetheless, the
                 principal author acknowledged that additional guidance for dealing with
                 particularly complex issues – such as potential bias and panel balance – could be
                 helpful. The Handbook author noted that he would prefer to do this by providing
                 peer review leaders with supplemental guidance regarding the types of
                 information they may need to obtain about potential panelists’ opinions and
                 viewpoints when they assess whether panels are independent and balanced. They
                 could also issue a supplemental package of training materials to peer review
                 leaders, and ensure that EPA project managers and EPA contractors receive this
                 training.

                 We also discussed ways to mitigate the potential for public perceptions that a
                 panelist might have a conflict of interest or a bias. The SAB Ethics Official told
                 us that, generally, “the best disinfectant is public involvement.” Noting that the
                 SAB now publicizes potential candidates on its website, we discussed the
                 advantages and disadvantages of this practice for EPA’s other peer reviews. The
                 SAB Director and the Ethics Official noted that publicizing relevant biographical
                 information about potential panelists on EPA’s website for a specific time, such
                 as 2 weeks, and soliciting and considering public input concerning the proposed
                 composition of a panel during the panel formation process, would be possible.
                 However, it would cost more and take longer, and some prospective panelists may
                 exclude themselves from the candidate pool under this approach, making it even
                 more difficult to find qualified peer reviewers. Both the SAB Director and the
                 Ethics Official noted that considering public input on panel formation could be
                 worthwhile for the more sensitive and controversial peer reviews.

Prior OIG Report Discussed Concerns With EPA Efforts to Assess
Peer Reviewers’ Independence

                 The OIG last reported3 on EPA’s efforts to ensure proper implementation of peer
                 reviews in 1999. The OIG reviewed 32 work products that were peer reviewed –
                 14 peer reviews arranged by EPA program offices, 12 by EPA contractors, and 6
                 by the SAB or the Science Advisory Panel. The OIG found that the SAB and

     3
         EPA’s S election of P eer Revie wers, EPA Office of Inspector General, Rpt. No. 1999-P-217, Sept. 1999.

                                                       25
                 Science Advisory Panel’s peer review procedures were effective and being
                 followed. However, the OIG identified instances where peer review leaders in
                 EPA program offices and contractors did not effectively attempt to determine
                 whether conditions existed that may have precluded an independent review.
                 Regarding peer reviews contracted by EPA’s program offices, the report
                 concluded that:

                     . . . EPA program offices should ensure that contract documents (the basic
                     contract, work assignments and work plans) consistently include specific
                     provisions for contractors to address independence concerns with peer
                     review candidates. . . . we are recommending that ORD (Office of
                     Research and Development) issue supplemental guidance to the
                     Handbook to help identify and resolve independence concerns.

Increased Federal Attention to Peer Review Panel Balance

                 The selection of peer review panels for review of government documents has
                 received considerable attention and scrutiny recently. In September 2003, the
                 Office of Management and Budget’s (OMB’s) Office of Information and
                 Regulatory Affairs published a draft Peer Review Bulletin and, in April 2004,
                 OMB issued a revised version based on the numerous comments received. Both
                 versions, if approved, would establish minimum standards for when a peer review
                 is required for “scientific information” and the types of peer review that should be
                 considered by Federal agencies in different circumstances. The need for OMB
                 guidance on conducting peer reviews is based, in part, on a 1999 GAO report
                 which found variability in both the definition and implementation of peer reviews
                 across Federal agencies.4 The OMB Bulletin specifically emphasizes
                 consideration of expertise and balance when selecting peer reviewers. The
                 Bulletin states that:

                     Reviewers should also be selected to represent a diversity of scientific
                     opinions relevant to the subject. On most controversial issues, there exists
                     a range of respected scientific viewpoints regarding the interpretation of
                     the literature. Inviting reviewers with competing views on the science may
                     lead to a sharper, more focused peer review.

                 With respect to reviewers who are not Federal employees, the draft Bulletin states
                 that agencies should “adopt or adapt” the prevailing practices of the National
                 Academy of Sciences regarding committee composition, conflicts, and balance.
                 Potential candidates for National Academy of Sciences’ peer review committees
                 are required to complete a “Background Information and Confidential Conflict of
                 Interest Disclosure” form. Among other things, this form asks that prospective
                 panelists list their relevant articles, testimony, speeches, etc., and the relevant


        4
       Federal Research: Peer Review Practices at Federal Agencies Vary , U.S. Ge neral Acc ounting O ffice, Rpt.
No. GAO/RCED -99-99, March 1999.

                                                       26
                positions of any organization or group with which the candidate is closely
                identified or associated. The form defines “relevant” as information

                      . . . related to – and might be reasonably of interest to others concerning
                      – your knowledge, experience, and personal perspectives regarding the
                      subject matter and issues to be addressed by the committee activity for
                      which this form is being prepared.

                An April 2004 GAO report5 commented on the lack of guidance to assist agencies
                in ensuring better independence and balance in Federal advisory committees, and
                provides useful information with respect to assessing conflict of interest and
                balance questions in other peer review efforts. For example, GAO reported that
                General Services Administration guidance on advisory committee management
                does not address the types of information that could be helpful to agencies in
                assessing the points of view of potential committee members, nor do agency
                procedures identify the information that should be collected about potential
                members to make decisions about committee balance.

Conclusions

                Given the importance of peer review in maintaining the integrity of EPA’s
                various scientific and technical work products, EPA should take steps to ensure
                that the Handbook is followed when conducting peer reviews of highly sensitive
                or controversial subject matters, and that issues of potential bias and overall panel
                balance are sufficiently addressed. Two such actions would involve (1) issuing
                supplemental guidance for peer review leaders on the types of information they
                may need to obtain about potential panelists’ opinions and viewpoints when they
                assess whether panels are independent and balanced, and (2) ensuring that peer
                review leaders receive training on this supplemental guidance.

Recommendations

                We recommend that the Assistant Administrator for Research and Development,
                as the Agency Science Advisor:

                3-1      Revise the Peer Review Handbook or issue supplemental guidance –
                         applicable to peer review of sensitive or controversial issues – that EPA
                         and its contractor should follow in identifying and addressing potential
                         conflicts of interest and biases, and for ensuring that panels are balanced
                         as a whole. Among other things, this guidance should include procedures
                         for:


        5
         Federal Advisory Committees: Additional Guidance Could Help Agencies Better Ensure Independence
and Balance, U.S. General Accounting Office, Rpt. No. GAO-04-328, April 2004.

                                                    27
                 a.	 explicitly determining whether prospective panelists have viewpoints
                     on the issues to be peer reviewed and, if so, whether these viewpoints
                     have been expressed publicly;
                 b.	 using general guidelines to assist peer review leaders in determining
                     whether a panel is balanced as a whole;
                 c.	 handling potential conflicts of interests and biases that are identified
                     after the panel has been selected;
                 d.	 ensuring that contracts for peer review services reference the Peer
                     Review Handbook as criteria to be used by the contractor in selecting
                     panelists;
                 e.	 documenting the basis or rationale for final panel formation prior to
                     commencement of the peer review, particularly the actions taken to
                     address any potential conflicts of interest, biases, and to ensure panel
                     balance; and
                 f.	 identifying the extent to which the public should be involved in the
                     peer review process and, in particular, under what circumstances the
                     Peer Review Leader should consider soliciting input from the public
                     on the potential makeup of the peer review panel.

         3-2 	   Revise the training materials for peer review leaders and others involved
                 in peer reviews for identifying and addressing potential conflicts of
                 interest and biases, and ensuring panel balance; and ensure that peer
                 review leaders, EPA project managers, and EPA contractors receive this
                 training.

         3-3 	 For highly sensitive or controversial peer reviews, consider the
                development of procedures for using the Agency’s website to
                electronically post proposed panel designs, and obtain public comments
                on proposed panel designs prior to panel formation, in a manner similar to
                that presently employed by the Science Advisory Board.

         3-4 	   In regard to the overriding need to obtain as much information as
                 necessary to provide reasonable assurance that potential panelist will be
                 impartial, consider the information-collection forms that are used by the
                 Science Advisory Board and the National Academy of Sciences (these
                 forms can be found at http://www.nas.edu/coi/BI-COI_FORM-2.pdf and at
                 http://www.epa.gov/sab/pdf/epaform3110-48.pdf ) .



Agency Comments and OIG Evaluation

         The Agency agreed with our recommendations, noting that “ . . . additional steps
         are needed to ensure that additional attention is given to the formulation of peer
         review panels . . . .” Agency officials also stated that they plan to develop


                                          28
“supplemental guidance and instructions that articulate the procedure(s) for
identifying and addressing potential COI and biases as well as for ensuring that
panels are balanced as a whole . . . . ” The Agency also agreed that Versar could
have done more to ensure balance regarding the viewpoints held by potential
panelists, but pointed out that NCEA emphasized that Versar sought balance
regarding “scientific expertise.” NCEA suggested wording be added to our report
to this effect, which we included in its entirety at the end of our discussion of the
fifth allegation. We also clarified one recommendation in this chapter, as
requested by ORD, to recognize that ORD already provided training and training
materials for peer review leaders and others involved in peer reviews, but that the
Agency would be developing additional training emphasizing identifying and
addressing potential conflicts of interest and biases, and ensuring panel balance.
The actions already completed, ongoing, and planned to ensure that scientific and
technical work products consistently receive adequate peer review, if properly
implemented, address our concerns.




                                 29
                                  Appendix A
Complainant’s Allegation Memorandum




                30

                                                                                                                  2

EPA has failed to insure tha t the gov ernmen t acts with im partiality an d provid e the pub lic with
full opportunity for participation in the risk assessment process for the WTC disaster. In my
7/4/03 re port and memo randum to the EP A Insp ector Ge neral, ** evidence w as provided o f
EPA’s sim ilar failure to prevent con flicts of interest in expert pan elists chosen for the E PA/IRIS
asbestos reassessm ent.

EPA did not require their contractor, Versar, to obtain all relevant information from potential
panelists, including asking specific questions whether potential panelists had ever stated
conclus ions that th ere were no haza rds from WTC exposu res, or to req uire the su bmissio n of full
disclosures of all business relationships with industries that would be affected by EPA findings
on WTC exposure hazards.

The Federal Acquisition Regulations Section 9.501 define conflicts of interest of governmental
contractors as follows:

                   “... because of other activities or relationships with other persons, a person is unable or
                   potentially unable to render impartial assistance or advice to the Government, or the
                   person’s objectivity in performing the contract work is or might be otherwise impaired, or a
                   person has an unfair competitive advantage.”

EPA has issued specific guidance on evaluating and handling post contact award conflict of
interest situations in Procurement Policy Notice No. 95 - 04, Proced ures for Handling Post
Award Organizational Conflicts of Interest (COI), dated 9/20/95, posted on the EPA website at
http://ww w.epa.g ov/oam /ptod/C OI/ppn 95-04 .pdf. Spe cific questio ns are po sed for E PA to
inquire of contractors to determine potential conflicts. CO1 criteria also include EPA evaluations
of the sensitivity of the work being performed by the contractor. EPA implemented none of
these pro cedures to contro l COI in the expe rt peer revie w pan el for the N CEA risk assessm ent.

Eric Chatfield, expert witness for W. R. Grace asbestos company

One m ember o f EPA ’s peer rev iew pan el for the N CEA risk assessm ent is Eric C hatfield. H e is
a paid expert witness for W.R. Grace & Co., the firm responsible for the asbestos contamination
in homes in Libby, Montana, the Superfund site. Litigation has been brought against Grace by
the U.S. Department of Justice.

In an exp ert report d ated 8/30 /02, Ch atfield stron gly opp osed E PA’s a nalytical e valuation of risks in
homes in Libby. A copy of his expert report is attached to this memorandum, which reads in part as
follows :




         **
              Jenkins, C. (1/4/03) Comments on the EPA Office of Inspector General’s 1/27/03 interim report titled:
EPA’s Response to the World Trade Center Towers Collapse — A DOCUMENTARY BASIS FOR LITIGATION.
This report is available at the following 2 websites:
www.NYenviroLAW.org (see banner at top of page) and http://www.nycosh.org/#anchorl5430

                                                              31
                                                                                                                         3

                    I have reviewed the action memoranda for the Libby site, the administrative record for the
                    period may 23, 2000 to June 4, 2002, the expert reports I have also reviewed the
                    ATSDR Health Consultation dated December 12, 2000, a Report to the Community dated
                    August 23, 2001, and a report entitled “Health Risks from Exposure to Zonolite Home
                    Insulation: Critical Evaluation of the Scientific Evidence Available from the ATSDR
                    Studies in Libby, Montana.
                    ...
                    I have determined that there are significant deficiencies in the underlying analytical data
                    that form the basis for the risk assessments conducted by EPA. I have also determined
                    that some analytical methods have not been used in accordance with the specifications of
                    the methods, and that some of the analytical methods used are not capable of providing a
                    reliable foundation for the decisions being made.
                              ...
                    [Report No. 02C029, Expert Report of Eric J Chatfield, Ph.D., in the matter of: United
                    States v. WR. Grace & Co., et al., Civil Action No. 01-72-M-DWM (D.Mont.), 8/30/02]

On 7/14/03, Chatfield is reported as telling the participants in the peer review meeting for the
EPA NCEA report that he did not think it was important to mention his work for Grace in the
biograp hy he p rovided to meetin g participa nts, and th at his wo rk for Gr ace was minim al. He is
incorrect on both points.

First, his work for Grace is not minimal or in the past. Providing an “expert report” to a
defendant in active litigation is just one step in the services provided by an expert witness. *** In
order for the expe rt report to b e of any use to G race, the ex pert also m ust mak e himself available
to the litigant, in this case the D ept. of Justice, for depo sition. Otherwise , the expert report
would not be ad missible a s eviden ce. The e xpert w itness wo uld also n eed to be available to
testify in co urt in the ev ent that the case we nt to trial.

Second, his business connection with Grace is extremely relevant to the WTC investigation.
This is because Grace has been using for its legal defense comparisons between EPA’s stringent
cleanup standards for homes in Libby compared to the lenient standards EPA has imposed for
the WTC cleanup. Grace is also using in its defense the fact that homes in Libby are less
contaminated with asbestos than buildings in Manhattan after the WTC collapse.

Thus, Grace has a vested interest in having EPA conclude (by way of the NCEA human health assessment
document) that citizens in NYC are not at risk from asbestos exposures. They can
then directly use these EPA conclusions to escape responsibility for the contamination in Libby.




          ***
               As a note for the record, on 7/14/03, Chatfield told the meeting participants that it was I who was
seeking a copy of his export report through a Freedom of Information Act request, and that he would have gladly
supplied me with a copy if I had written. This also is untrue, as it was a concerned parent from the Brookfield
school system, Kathy Hulce, who sought this report and obtained it from EPA through the FOlA. Neither the citizen
nor I knew of the existence of the expert report until it was provided by EPA. The FOIA request was broad and
included all writings by Chatfield submitted to EPA regarding WR Grace. Furthermore, on 5/30/02 I wrote to
Chatfield for clarification of claims he made to the same Ms. Hulce regarding the Brookficld school system and
received no reply, so it would not have appeared fruitful for me to have made any new inquiries directly to Chatfield.

                                                               32
                                                                                                              4

The following are two letters (attached) from Grace to EP A, written in the same time frame as
Chatfield ’s expert re port, wh ich illustrate th is point.

The first letter, below, attempts to gain more lenient cleanup standards for Libby based on the
fact that EPA is imposing less stringent asbestos air and dust standards in New York City after
the WTC collapse:

                The purpose of this letter is to continue Grace’s dialogue with EPA regarding Zonolite
                Attic insulation (“ZAI”), a home insulation product consisting of expanded vermiculite. For
                your background, ZAI has been insulating homes for over 60 years and there is no
                credible reason to believe that ZAI has ever caused an asbestos-related disease in
                anyone who has used it in his/her home. Nevertheless, EPA Region 8 is requesting that
                EPA declare, for the first time ever, that a “public health emergency exists at a
                (proposed) Superfund site.
                ...
                Contrasted to Region 8’s disregard of established norms, EPA’s pronouncements and
                activities regarding the World Trade Center collapse reaffirm those norms. Thus, EPA’s
                website reiterates that:

                   —	 EPA is using the 1% definition of an asbestos-containing material in evaluating
                      dust and bulk samples.

                   —	 Air samples are the accurate measure of actual exposure potential, whereas the
                      presence of asbestos in dust is not necessarily a significant health hazard.

                  —	 EPA uses the “extremely stringent” standard under AHERA of 70 structures/sq.
                     mm. to evaluate the risk from asbestos in the outdoor and indoor air. That
                     standard was expressly chosen because it is the most stringent and protective,
                     and is based on assumptions of long-term exposure.

                  —	   Asbestos exposure becomes a health concern when high concentrations of
                       asbestos fibers are inhaled over a long period of time. The fact that a small
                       percentage of samples exceeded the AHERA standard was not considered to be
                       evidence of a significant health risk.

                We believe that sound science dictates that the same peer reviewed methodologies for
                assessing risks at the WTC should be applied across the board, including in Libby,
                Montana.
                ...
                [emphasis in original) (letter to Christine Todd Whitman, Administrator, EPA, from William M.
                Corcoran, Vice President, W. A. Grace & Co., dated 4/10/02]

In the next letter, WR Grace compares asbestos contamination levels in Libby to those in NYC
after the WTC collapse. WR Grace states that residences in Manhattan are more contaminated
than in Libby (which is true). This is also offered as a rationale for not cleaning up Libby to the
more stringen t standards impo sed by Re gion 8, since the cle anup in M anhattan is rudim entary
and slipshod in comparison to that being required for Libby.




                                                        33
                                                                                                    5

        We appreciate the opportunity you gave us on January 31 to present Grace’s view of the
        data from Libby, Montana that EPA is using to guide its decision regarding removal of
        Zonolite At tic Insulat ion from hom es in that com munity.

                 I would like to summarize several of the points that were made in the meeting.
                 ...
                 Based on the data we have seen, there are very low levels of asbestos in surface dust in
                 homes in Libb y, Montana. T here is only ch rysotile fou nd on windowsills , which is a key
                 collection point. In all surfaces in Libby, chrysotile fibers exceed amphibole fibers by 3X
                 to 30X. In fact, asbestos concentrations In dust in Libby homes is significantly lower than
                 that found in New York City before 9/11, is far below that found after 9/11, and is
                 significantly lower than the concentrations that EPA found in studies of carpets, ceilings,
                 and lights.
                 ...
                 [letter to Michael Shapiro, Principal Deputy Assistant Administrator, Office of Solid Waste
                 and Emergency Response, EPA, from William M. Corcoran, Vice President, W R. Grace
                 & Co., dated 2/6/02 ]



Prejudicial statements by other panelists

Two other panelists are known to have advised the public through the press that there were no
hazards from W TC ex posures . Their statem ents are pre judicial, m aking it d ifficult for the m to
change their opinions at this later date to agree with any EPA conclusions, no matter what the
data, that there are potential or real risks from WT C exposures.

There w ould no t be the sam e kind o f legal liability problem for a pane list and their parent
institutions if the panelist had earlier advised the public to take precautions over and beyond
those recommended by public officials at the time. Such a person could easily state that new
evidence demonstrated that such precautions were unnecessary. They would not now be in a
liability situa tion of ha ving failed to warn the pub lic in the pa st, puffing them at risk .



Prejudicial statements by Patrick Kinney

One panel member, Patrick Kinney, has gone on record to state that tests had conclusively
demonstrated that asbestos conc entrations as well as th e other measu red toxic constituen ts were
not of concern.

It would be difficult if not impossible for Kinney to now agree with any conclusions by EPA that
there are potential risks, because that would constitute a reversal of earlier advice Kinney offered
to the pu blic throu gh the p ress on th e safety o f returning home a nd bein g expo sed to
uncon trolled W TC du st. Any fin dings o r recomm endation s on the N CEA draft by K inney w ould
always be influenced by his earlier “on record” comments below. There may be many other
places w here Kin ney m ade such statemen ts as well.




                                                         34
                                                                                                                 6

                More than six weeks after the September 11 terrorist attack on New York. fires are still
                smoldering under the debris of the former World Trade Center complex. The continuing
                smoke is worrying some city residents about the quality of the air they are breathing.

                City officials have tried to reassure New Yorkers, ordering a series of on-going tests to
                monitor air quality. Patrick Kinney specializes in the effects of air quality on respiratory
                systems at Columbia University’s School of Public Health. He says the tests show there
                are no toxic pollutants. like asbestos, tainting the quality pf air. “The data that has been
                collected so far do not show concentrations of pollutants that are of concern.” adds
                Professor Kinney. “However, not all of the pollutants that you might want to look at have
                been monitored or, at least, reported yet. So the database is incomplete. Based on what
                we know so far, there is no cause for alarm.”
                ...
                But Professor Kinney says it is unlikely that new data will show any pollutants that put
                people at risk. “I do not think it was unwise to have people start repopulatinq the area,” he
                says. “I think that our noses are very sensitive and we pick up a lot of things that are not
                necessarily toxic. I think it is good to be careful, to minimize exposure as much as
                possible. For the general public, as long as we are careful, I think the risks are quite low.”
                ...
                [emphasis added] [NY Residents Worry About Air Quality, Barbara Schoetzau, New York,
                10/28/01, http://www.help-for-you.corn/news/Oct2001/0ct28/PRT28-38Article.html ]



Prejudicial statements by Allison Gevh

The peer review panelist Alison Geyh has also made definitive conclusions that asbestos testing
showed no harm ful levels, and that there were no lung obstructive airway problems for citizens.
As with the panelist Kinney, it would be difficult for Geyh from a liability standpoint to now
agree with any EPA conclusions indicating a hazard or compromised health risk.

                Investigators from the Johns Hopkins Bloomberg School of Public Health now believe that
                World Trade Center workers’ respiratory problems are the result of exposure to dust and
                airborne contaminants at Ground Zero. Workers assigned to clear debris have reported
                coughing, wheezing and sore throats while working at Ground Zero. The symptoms
                seemed to increase the longer they worked at the site, according to Dr. Alison Geyh, the
                chief investigator and assistant professor of environmental health sciences at Johns
                Hopkins. “The good news is that we did not find unhealthy levels of asbestos, but we don’t
                know what the long term health risks may be regarding exposure to other airborne
                contaminants at the site.”
                ...

                [emphasis added] World Trade Center Health Update Summarized by Cheryl Runyon from
                the Environment News Service AmeriScan, Aug. 23, 2002,
                http://www.ncsl.org/programs/esnr/wtchealth.htm ]




                In a study of more than 180 cleanup workers, researchers at Johns Hopkins Bloomberg
                School of Public Health found that acute respiratory symptoms such as coughs, phlegm
                and wheezing were more prevalent than before they began working at the site. But in most
                workers, said Dr. Alison Gevh, the lead researcher, there was no sign of lung obstruction.




                                                    35
                                                                                                     7

       “For the general community this is a very good story,” Geyh said.
                ...
                [Researchers tell of health studies tied to WTC disaster; By Carl Glassman, 11/2/01,
                Online News From The Tribeca Trib http.//www.tribecatrib.com/newsnov02/enviro2r html ]



cc:	   Peter Preuss, Director, EPA ORD NCEA
       Lester Grant, Director, EPA ORD NCEA-RTP subdivision
       Affected parties and other resp onsible o fficials




                                                 36
                                                                                          Appendix B

           Peer Review Panelists and Backgrounds
Panelist              Title                    Expertise                 WTC Experience

Eric J. Chatfield,    President,               Asbestos                  Performed limited indoor
Ph.D.                 Chatfield Technical      measurement methods       dust/asbestos sampling for
                      Consulting Limited                                 Ground Zero Elected Officials
                                                                         Task Force.

Michael Dourson,      Director,                Human health risk         Organized and chaired the
Ph.D.                 Toxicology Excellence    assessment                peer review of EPA's
                      for Risk Assessment                                Contaminants of Potential
                                                                         Concern report.

Alison Geyh,          Assistant Professor,     Particulate matter        Principal investigator on project
Ph.D.                 John Hopkins             monitoring and            to assess the health of workers
                      University Bloomberg     exposure/ risk            who were involved in cleanup
                      School of Public         assessment; personal      and recovery efforts at the
                      Health                   monitoring and            WTC site and Fresh Kills
                                               epidemiology              Landfill.

Gary Hunt,            Vice President of Air    Characterization,         Consultant to New York City
M.S.                  Toxics Programs and      quantification and        Law Department relative to
                      Director of Air Toxics   control of toxic air      monitoring performed in the
                      Monitoring,              pollutant emissions       aftermath of the WTC collapse.
                      TRC Environmental        from stationary and
                      Corporation              fugitive sources.

Patrick Kin ney,      Associate Professor,     Human health impacts      Limited involvement in
Sc.D.                 Mailman School of        of air pollution          Columbia University/National
                      Public Health at                                   Institute of Environmental
                      Columbia University                                Health Sciences project to
                                                                         evaluate exposure and
                                                                         epidemiological data.

Margaret              Argonne National         Risk assessment           None
MacDonell, Ph.D.      Laboratory,
                      Department of Energy

Clifford P. Weisel,   Deputy Director,         Exposure assessor         Co-author on papers about
Ph.D.                 Exposure                 (particulates, volatile   exposure associated with WTC
                      Measurement and          organic compounds,        disaster based on samples
                      Assessment Division;     other urban air           collected and analyzed with
                      Environmental &          pollutants)               funding from National Institute
                      Occupational Health                                of Environmental Health
                      Sciences Institute                                 Sciences.




                                                   37
                                                                                   Appendix C

                   Agency Response to Draft Report
                                         October 21, 2004
                                                                                       OFFICE OF
                                                                               RESEARCH AND DEVELOPMENT




MEMORANDUM

SUBJECT:	 Response to OIG Draft Special Report – World Trade Center Peer Review

FROM:	         Paul Gilman /s/ William Farland for
               Assistant Administrator (8101R)

TO:	           Kwai-Cheung Chan
               Assistant Inspector General for Program Evaluation (2460T)

Purpose

      This memorandum responds to the OIG Draft Special Report: Review of Conflict of
Interest Allegations Pertaining to the Peer Review of EPA’s Draft Report, “Exposure and
Human Health Evaluation of Airborne Pollution from the World Trade Center Disaster,”
#2003-001585, dated September 15, 2004.

Background/Discussion

        ORD generally finds the draft report prepared by the Office of the Inspector General
(OIG) to be reasonable. Although we concur with most of the recommendations, there are
several points which still merit clarification both with respect to the evaluation and specific
recommendations. Detailed comments are attached that we believe will sharpen the quality and
accuracy of the draft report (Attachment 1).
        ORD agrees with the primary findings of the draft report that it does not appear the
panel’s input was biased and any potential perception of bias or conflict was not so direct and
substantial that any of the panelists should have been excluded from the panel. Specifically, the
draft report found that the two scientists who had publicly expressed opinions regarding certain
World Trade Center (WTC) hazards do not appear to have had significant biases, and the
specific scientist who was alleged to have a conflict of interest (COI) was found not to have such
a conflict. We agree, however, that a prior business relationship of this latter scientist may have
resulted in a perception of a COI. Further, while it appears that ORD’s contractor (Versar) took
reasonable steps to assemble a balanced panel for the review, we agree that we want our
contractors to collect more information relevant to potential COI or bias than was the case here.
ORD’s National Center for Environmental Assessment (NCEA) will provide more specific
direction to that effect to its contractors.


                                                38
                                                2


        ORD wants to have the best peer review practices possible for Agency products. With
that end in mind, I will comment on the specific recommendations provided in the draft report.


Recommendation 2-1: Specific Recommendations to the Director, National Center for
Environmental Assessment, concerning peer review procedures and guidance
        NCEA agrees with the OIG that the contractor could have gathered more information
about financial ties with parties whose interests might have been affected by the conclusions
presented in the health evaluation document. We agree with the recommendations in Chapter 2
that NCEA should provide written guidance and detailed instructions to its peer review
contractors concerning potential COI and biases.
         NCEA has been working on language to articulate more specifically the kinds of information
to be collected by the contractor from potential peer reviewers in regard to employment and
professional affiliations, financial relationships, prior involvement on related issues, and publicly
made statements or a position taken on the subject chemical or topic under review. The Deputy
Director of NCEA recently signed a memorandum with instructions to NCEA staff on this issue
(Attachment 2). This information will provide the contractor the basis to determine whether such
parties might be affected by the outcome of the peer review. Additionally, this information will be
requested for all future NCEA peer review panels unless waived by the Center Director. In the
future, NCEA’s contractors will be required to provide a signed certification to the EPA that can be
made public stating there are no unresolved actual or potential COI issues among the panel members
and that the panel is suitably balanced with respect to any actual or apparent bias. We believe this
fulfills Recommendation 2-1.
        While not a specific recommendation in the report, I note that public input into the
composition of a peer review panel is not a current requirement. Some bodies such as the EPA
Science Advisory Board (SAB) have adopted that step into their procedures. NCEA may, at
times, provide the public an opportunity for public input to the panel selection. In that
circumstance, the public comments collected by the contractor on the composition of the
proposed panel with respect to expertise, COI and bias may be considered and appropriate
adjustments to the panel may be made.

Recommendation 3-1: Specific Recommendations to the Assistant Administrator for
Research and Development concerning revision of the Peer Review Handbook

       We agree that additional steps are needed to ensure that additional attention is given to
the formulation of peer review panels for products anticipated to be highly controversial and/or
address sensitive issues. An overarching recommendation from the OIG draft report is that the
EPA’s Peer Review Handbook be supplemented with additional instructions to address this issue
(see page 22 of draft report). Our plan is to develop additional guidance to address
Recommendation 3-1, “Revise the Peer Review Handbook or issue supplemental guidance –
applicable to peer review of sensitive or controversial issues – that EPA and its contractor should
follow in identifying and addressing potential COI and biases, and for ensuring that panels are

                                                39
                                                3


balanced as a whole.” We do not plan to revise the Peer Review Handbook per se, because we
believe it stands, as written, as a good resource and is not intended to be a “cook book” of
specific types of procedures. Rather, ORD and the Science Advisor believe that, to clarify how
to manage peer reviews involving sensitive or controversial issues, it is more appropriate to use
supplemental guidance and instructions that articulate the procedure(s) for identifying and
addressing potential COI and biases as well as for ensuring that panels are balanced as a whole
(e.g., follow and adhere to the guidance and intent of the Handbook and Federal Acquisition
Regulations).

         ORD and the Science Advisor view the specific recommendations and detailed
suggestions (particularly Recommendations 3-1 to 3-4) as useful to consider in providing such
supplemental guidance as a means to help ensure “that the Handbook is followed when
conducting peer reviews of highly sensitive or controversial subject matters, and that issues of
potential bias and overall panel balance are sufficiently addressed” (see conclusions page 25 of
draft report). A list of example questions that peer review leaders and contractors might use can
be incorporated into the supplemental instructions. Example questions could be: “What funding
from any present or prior clients (e.g., industry, EPA, others) have you received?” and, “Have
you expressed viewpoints on the issues being reviewed; if so, when and in what forum?” Also,
the instructions can detail specific actions peer review leaders and contractors can take to
address potential COI, documentation of actions, and public involvement. We believe these
example questions and actions will incorporate the OIG’s specific points (Recommendation 3-1,
a.-f.) .

       Therefore, we request Recommendation 3-1 be revised to read: “EPA should consider
providing further guidance on procedures.”

Recommendation 3-2: Specific Recommendations to the Assistant Administrator for
Research and Development for the development of training materials

        ORD’s Office of Science Policy has conducted peer review training for the Agency based
on the policies and procedures described in the Agency’s Peer Review Handbook and guidance
from the Office of Management and Budget (OMB). In addition, there are regular meetings of
the Agency’s peer review coordinators to discuss peer review issues. We are currently revising
the training materials and plan to conduct additional training in the future. We request the report
be changed to state that training materials will be “revised” v. “developed.”

Recommendation 3-3: Specific Recommendations to the Assistant Administrator for
Research and Development concerning the development of a peer review website

       The Agency will develop a peer review website. We agree that the recommended
changes to the existing website information and other changes required to respond to the
proposed OMB guidelines on peer review should be available online.


                                                40
                                               4


Recommendation 3-4: Consider adoption of forms used by the Science Advisory Board
(SAB) and the National Academy of Sciences (NAS)
       The suggestion to use information-collection forms to obtain as much information as
necessary is also very helpful. The Science Policy Council will be asked to adopt an Agency-
wide policy directing its contractors to use the forms developed by the SAB and NAS.


        We have also included the ORD corrective action plan to address recommendations made
in the draft report. Since ORD has already completed some of the required actions and identified
milestones for others, we believe the final report should state this and be closed upon issuance.
       We appreciate the OIG making a careful evaluation of the accusations that were made
about the peer review of the EPA Draft World Trade Center Report. Peer reviews are an
important component of the Agency’s quality assurance program, and we take seriously their
conduct. Should your staff have questions or require further information, please have them
contact Cheryl Varkalis at 202-564-6688.
Attachments (2)

cc: W. Farland
    L. Matthews
    K. Dearfield
    P. Preuss
    M. Lorber
    J. Morris
    C. Varkalis




                                               41
                                                                                                      Appendix D

                              ORD Corrective Action Plan
      OIG Special Report: Review of Conflict of Interest Allegations Pertaining to the Peer
      Review of EPA’s Draft Report, “Exposure and Human Health Evaluation of Airborne
                      Pollution from the World Trade Center Disaster”
                                 Assignment No. 2003-001585
                                     September 15, 2004

Rec              Recommendation                      Action                Corrective Action                    Due
 #                                                   Official                                                   Date
2-1       We recom mend that the Director,
          National Center for Environmental
          Assessment, implement procedures
          to ensure that guidance in E PA’s
          Peer Review Handbook is followed
          in carrying out NCEA peer reviews,
          specifically tha t:
          (a) NCEA’s peer review contracts,       Director, NCEA     Memorandum on peer review                Completed
          as well as any EPA peer review                             conflicts of intere sts distributed to   10/07/2004
          Contracto rs’ consultan t agreeme nts                      NCEA staff
          and subcontracts, contain written
          guidance concerning potential
          conflicts of interest and biases, and
          (b) NCEA ’s potential panelists are
          asked about the industry financing      Director, NCEA     Memorandum on peer review                Completed
          they have received, an d their                             conflicts of intere sts distributed to   10/07/2004
          relationship with any clients whose                        NCEA staff
          interests might be affected by the
           subject being peer reviewed.

3-1       Revise the Peer Review Handbook         Assistant          Develo p additiona l guidance to         6/30/2005
          or issue supplemental guidance –        Administrator      supplement the existing Peer
          applicable to peer review of            for Research and   Review Handbook
          sensitive or controversial issues –     Development
          that EPA and its contra ctor should
          follow in identifying and addressing
          potential conflicts of interest and
          biases, and for ensuring that panels
          are balanced as a whole.
3-2       Develop training materials for peer     Assistant          Revise ex isting training m aterials     6/30/2005
          review leaders and others involved      Administrator      and augm ent as nece ssary to
          in peer reviews for identifying and     for Research and   provide additional information
          addressing potential conflicts of       Development        concernin g conflicts of in terests.
          interest, biases, and ensuring panel
          balance, and ensure that peer review
          leaders, EPA project managers, and
          EPA co ntractors rece ive this
          training.




                                                          42
3-3   For highly sensitive or controversial    Assistant          Develop a Peer Review Website          6/30/2005
      peer reviews, consider the               Administrator      to post peer review guidance and
      development of procedures for            for Research and   information on specific p anels
      using the A gency’s w ebsite to          Development
      electronically post proposed panel
      designs, an d obtain pu blic
      comments on proposed panel
      designs prio r to panel form ation, in
      a manne r similar to that pre sently
      employed by the Science Adv isory
      Board.

3-4   In regard to th e overriding need to     Assistant          Reque st Science P olicy Cou ncil to   6/30/2005
      obtain as much information as            Administrator      adopt an Agency-wide policy
      necessary to provide re asonable         for Research and   directing its contractors to use the
      assurance that potential pa nelists      Development        forms developed by the SAB and
      will be impartial, consider the                             NAS.
      information-collection forms that
      are used by the Scien ce Advisory
      Board and the National Academy of
      Sciences.




                                                       43
                                                                                       Appendix E

                      NCEA Policy Announcement
                                          OCT -- 7 2004
                                                                                           O F F I CE O F
                                                                           R E S E A R C H A N D D E V E LO P M E N T


Policy Announcement - NCEA-EM-O5-O1

Subject:	      Avoiding Peer Review Conflicts of Interest (COT)

From:	         George W. Alapas
               Deputy Director for Management
               National Center For Environmental Assessment

To:	           Staff Directors
               Division Directors

Purpose

        This memorandum implements a new approach related to identification and resolution of
Conflict of Interest (COI) for external Peer Review Panelists. The affected extramural vehicles
are NCEA’s peer review contracts Support for Peer Review and Risk Assessment Guidelines
Activities and NCEA’s Interagency Agreement with the Department of Energy/ORISE IRIS
Technical Support for Human Health Risk Assessment, Peer Review and Related Activities.

Effective Date: Immediately

Background

         To assure that peer reviewers are providing impartial advice on the scientific merits of
   NCEA products, NCEA is incorporating specific COI provisions into Task Order (TO)
Statements of Work (SOW) for peer reviews. These provisions will serve as a “tool” to aid the
contractor in identifying an actual or potential COI that might impair the objectivity of peer
reviewers.




                                                44
                                                2


Policy Statement

       Panel peer reviews procured through NCEA’s peer review contracts Support for Peer
Review and Risk Assessment Guidelines Activities and NCEA’s IAG with Department of
Energy/ORISE IRIS Technical Support for Human Health Risk Assessment, Peer Review and
Related Activities must include the attached COI requirements in the TO SOW, unless the
requirement is waived by the NCEA Director.
Guidance

        Each TO procuring peer reviewers shall include the Conflict of Interest Analysis and
Certification (Attachment 1) and Revised Conflict of Interest Section (Attachment 1 a). For
independent Government estimating purposes, 40 labor hours at a Pt 3 or comparable rate is
allocated to accomplish this task. This estimate may be adjusted once information on the actual
hours incurred is obtained from the contractor. In addition to the mandatory COI task, standard
language has been developed for purposes of providing Opportunity for Public Input to Panel
Selection (Attachment 2). This is an optional task to be included in the SOW at the discretion of
the TO Project Officer.


     Please address questions concerning implementation of this policy to Karen Summers,
NCEA’s Extramural Management Specialist, at (202) 564-4453.


cc:	    Associate Directors
        Deputy Division Directors
        Branch Chiefs



Attachments (3)




                                                45
                                              3


                                                                                      Attachment 1


Task #. - Conflict of Interest Analysis and Certification (Mandatory)

a.     Prior to selecting expert panelists, the contractor shall perform an evaluation to determine
       the existence of an actual or potential COI for each proposed panel member. The
       contractor shall incorporate the attached yes/no questions (a.- i.) and requests for
       supporting information (j.-r.) into its established process to evaluate and determine the
       presence of an actual or potential COI. All information provided by the proposed panel
       member shall be verified by the contractor.

b.     The contractor shall resolve issues of actual or potential conflicts of interest and panel
       composition before assembling the panel. As each situation must be evaluated on a case­
       by-case basis after consideration of specific circumstances, the contractor may consult
       with the Contract Officer (CO) in carrying out these responsibilities. Consultation
       between the contractor and the CO must be documented and provided to the CO to assure
       transparency in the process and fill disclosure, if questions arise concerning COI.

c.     The contractor shall provide written basis and signed certification that might be made
       public for concluding that there are no unresolved actual or potential conflicts of interest
       issues among the panel members, and to ensure that the panel is suitably balanced with
       respect to any actual or apparent bias.

Deliverable: W
             	 ritten basis
              Signed Certification (See TO “Conflict of Interest” Section)

d. 	   The contractor shall require each panel member to provide a signed declaration that the
       panel member is not arranging any new professional relationship with, or obtaining new
       financial holdings in, an entity which is not yet reported to the contractor or could be
       Viewed as related to the topic under discussion and its associated stakeholders.

Deliverable: Panel member signed declaration

e. 	   The contractor shall provide the Project Officer (P0) resumes for all panel members.
       These resumes might later be made public.




                                                 46
                                                 4

                                                                                     Attachment 1

Deliverable:    Resumes

Task #. - Conflict of Interest Analysis and Certification
          Questions and Supporting Information

       a.      To the best of your knowledge and belief, is there any connection between the
               subject chemical or topic and any of your and/or your spouse’s compensated or
               uncompensated employment, including government service, during the past 24
               months? Yes ____ No ____

       b.      To the best of your knowledge and belief, is there any connection between the
               subject chemical or topic and any of your and/or your spouse’s research support
               and project funding, including from any government, during the past 24 months?
               Yes ____ No _____

       c.      To the best of your knowledge and belief, is there any connection between the
               subject chemical or topic and any consulting by you and/or your spouse, during
               the past 24 months? Yes _____ No

       d.      To the best of your knowledge and belief, is there any connection between the
               subject chemical or topic and any expert witness activity by you and/or your
               spouse, during the past 24 months? Yes _____ No

       e.      To the best of your knowledge and belief, have you, your spouse, or dependent
               child, held in the past 24 months, any financial holdings (excluding well-
               diversified mutual funds and holdings, with a value less than $15,000) with any
               connection to the subject chemical or topic? Yes ____ No

       f.      Have you made any public statements or taken positions on or closely related to
               the subject chemical or topic under review? Yes _____ No

       g.      Have you had previous involvement with the development of the document (or
               review materials) you have been asked to review? Yes _____ No

       h.      To the best of your knowledge and belief, is there any other information that
               might reasonably raise a question about an actual or potential personal conflict of
               interest or bias? Yes           No

       i       To the best of your knowledge and belief, is there any financial benefit that might
               be gained by you or your spouse as a result of the outcome of this review?
               Yes          No




                                                 47
                                        5




j.	   Compensated and non-compensated employment (for panel member and spouse):
      list sources of compensated and uncompensated employment, including
      government service, for the preceding two years, including a brief description of
      Work.

k.	   Research Funding (for panel member): list sources of research support and project
      funding, including from any government, for the preceding two years for which
      the panel member sewed as the Principal Investigator, Significant Collaborator,
      Project Manager or Director. For panel member’s spouse, provide a general
      description of research and project activities in the preceding two years.

l.	   Consulting (for panel member): compensated consulting activities during the
      preceding two years, including names of clients if compensation provided 15% or
      more of annual compensation. For panel member’s spouse, provide a general
      description of consulting activities for the preceding two years.

m.	   Expert witness activities (for panel member): list sources of compensated expert
      witness activities and a brief description of each issue and testimony. For panel
      member’s spouse, provide a general description of expert testimony provided in
      the preceding 2 years.

n.	   Assets: Stocks. Bonds. Real Estate. Business. Patents. Trademarks, and Royalties
      (for panel member, spouse and dependent children): specific financial holdings
      that collectively had a fair market value greater than $15,000 at any time during
      the preceding 24-month period (excluding well-diversified mutual funds, money
      market funds, treasury bonds and persona] residence).

o.	   Liabilities (for panel member, spouse and dependent children): liabilities over
      $10,000 owed at any time in the preceding twelve months (excluding a mortgage
      on personal residence, home equity loans, automobile and consumer loans).

p.	   Public Statements: A brief description of public statement and/or positions on or
      closely related to the matter under review by the panel member.

q.	   Involvement with document under review: A brief description of any previous
      involvement of the panel member in the development of the document (or review
      materials) the individual has been asked to review.

r.	   Other potentially relevant information: A brief description of any other
      information that might reasonably raise a question about actual or potential
      personal conflict of interest or bias.




                                             48
                                                      6
                                                                                     Attachment 1 a


Insert into SOW Under Conflict Of Interest Section
(Mandatory)

1. Certifying describing analysis and conclusion

           The contractor shall provide the CO and P0 written certification, within the time
specified in the Task # of the SOW after an award, that:

       a.    The contractor has resolved all conflict of interest issues, either by
             eliminating a particular reviewer from the panel or by determining that the
             interest will not impair the individual’s objectivity nor create an unfair
             competitive advantage for any person or organization.

       b.    The contractor recognizes its continuing obligation to identify and report any
             conflicts of interest arising during performance of the task order

       c.    All personnel who perform work under this task order or relating to this task
             order have been informed of their obligation to report any conflict of interest
             to the contractor who shall, in turn, report to the contracting officer

2. Ongoing Compliance Review during contract performance

       a.	   The contractor shall require advanced notification from panelist concerning changes
             to information disclosed under Task #.a.

       b.	   The contractor shall inform the CO and P0 of any change in financial or professional
             relationships that may create either an actual or potential conflict of interest or bias
             during the period of performance.

       c.	   The contractor shall consult the CO and P0 concerning available options in cases
             where actual or potential conflict of interest is determined.

3. Disclosure of Information Used in Conflict of Interest Evaluation

       The financial and professional information obtained by the contractor as part of the
evaluation to determine existence of actual or potential conflict of interest is considered private
and non-disclosable to EPA or outside entities except as required by law or requested as part of a
formal investigation by the EPA Office of Inspector General, General Accountability Office,
Congressional Committee.




                                                 49
                                                 7

                                                                                       Attachm ent 2



Task # - Opportunity for Public Input to Panel Selection
(Task required only when public comment on a panelist is required)


a. Public opportunity to recommend panel members

        As the contractor assembles a proposed panel, the contractor shall review and consider
public recommendations. Public recommendations for panel members will be provided as
identified in the EPA generated Federal Register Notice. This notice will identify how members
of the public can provide information needed to judge the expertise and appropriateness of the
recommended reviewer.

b. Public comment on panel composition

        Subsequent to EPA’s acceptance of the comprised expertise of the proposed panel
members, the contractor shall make publicly available a description of the proposed panel, the
contractors’ statement as to why they judge the panel to be without conflict of interest, or
without significant bias that has been appropriately disclosed and balanced. The contractor shall
invite public comment on the composition of the proposed panel with respect to expertise,
conflict of interest and bias. The contractor shall assemble and consider the comments received
and make any further adjustments appropriate to the panel Copies of any comments received
shall be provided to the EPA project officer.




                                                50
                                                                                 Appendix F

                                     Distribution

EPA Headquarters

Agency Followup Official (2710A)

Agency Followup Coordinator (2724A)

Audit Followup Coordinator, Office of Research and Development (8102A)

Audit Liaison, Office of Research and Development (8102R)

Associate Administrator for Congressional and Intergovernmental Relations (1301A)

Associate Administrator for Public Affairs (1101A)

Inspector General (2410)





                                             51
